<html>
<title> - U.S. POLICY TOWARD VICTIMS OF TORTURE</title>
<body><pre>[Senate Hearing 106-244]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-244


 
                  U.S. POLICY TOWARD VICTIMS OF TORTURE

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 30, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 61-048 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                     ROD GRAMS, Minnesota, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Cooper, Angelique, torture survivor from Liberia, Minneapolis, MN    22
    Prepared statement of........................................    39
Freeman, Bennett, Deputy Assistant Secretary of State, Bureau of 
  Democracy, Human Rights, and Labor, Department of State........     4
    Prepared statement of........................................     7
Genefke, Dr. Inge, secretary-general, International 
  Rehabilitation Council for Victims of Torture, Copenhagen, 
  Denmark........................................................    20
    Prepared statement of........................................    36
Johnson, Douglas A., executive director, Center for Victims of 
  Torture, Minneapolis, MN.......................................    23
    Prepared statement of........................................    40
VanDusen, Ann, Deputy Assistant Administrator, Bureau for Policy 
  and Program Coordination, U.S. Agency for International 
  Development....................................................    10
    Prepared statement of........................................    12
        Report to the Subcommittee on Foreign Operations, House 
          Committee on Appropriations, concerning USAID 
          Programming to Prevent and Treat Torture...............    15

                                 (iii)


                 U.S. POLICY TOWARD VICTIMS OF TORTURE

                              ----------                              


                         FRIDAY, JULY 30, 1999

                               U.S. Senate,
          Subcommittee on International Operations,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:03 p.m., in 
Senate Foreign Relations Committee room S-116, U.S. Capitol, 
Hon. Rod Grams (chairman of the subcommittee) presiding.
    Present: Senators Grams and Wellstone.
    Senator Grams. I would like to bring this hearing to order.
    Of course, we apologize for the delay, but we thank you for 
taking the time and staying around. I know we are 4 hours late 
because of all the votes that we are having on the floor today. 
We still have a number of them left. So we might have to just 
take brief recesses and run back and forth. But we should be 
able to get the majority of the hearing in. It will probably be 
a little more abbreviated than we had hoped or expected.
    I would just like to say a couple words to start with. I 
know Senator Wellstone will be here momentarily to join us as 
well. I talked to him on the floor, and he told me that he will 
be here. So we are expecting him to come in in just a moment.
    I think most Americans are aware that torture still occurs. 
And they may have heard about the rape camps in Bosnia or the 
cellar at the police station in Pristina, Kosovo. But I do not 
think they believe it is as widespread or so crippling the 
effects that it has on societies.
    And torture is practiced or condoned in more than 100 
nations around the world. And torture, as we know, is not used 
as a weapon just against an individual, but it is used as a 
weapon against democracy.
    Now the only provision of the Torture Victims Relief Act 
that has been fully implemented is the authorization of the 
increased U.S. contribution to the U.N. voluntary funds. No 
other funds have been forthcoming to date, although the 
Department of Health and Human Services did include the full 
$7.5 million authorization for fiscal year 2000 in its budget 
request for domestic treatment centers. USAID did not request 
any funds for treatment centers abroad.
    It remains possible for USAID to designate funds in our 
multi-billion dollar foreign aid budget for grants to torture 
victims treatment centers. And I encourage USAID to do so.
    Today Senator Wellstone and I are going to raise the bar by 
introducing the Torture Victims Relief Reauthorization Act. 
This bill will increase the authorization level to $10 million 
for domestic treatment centers, $10 million for international 
centers, and $5 million for a United States contribution to the 
Voluntary Fund for Tortured Victims through fiscal year 2003.
    I look forward to hearing from the administration witnesses 
today about the reasons why it has not fully implemented the 
Torture Victims Relief Act and steps that can be taken to move 
that process forward. And I hope the administration listens to 
experts like Doug Johnson from the outstanding Center for 
Victims of Torture in my home State of Minnesota and also Dr. 
Inge Genefke of the International Rehabilitation Council for 
Torture Victims, because they have a real proven record of 
excellence in this field.
    And as we will hear from a very courageous torture 
survivor, Ms. Angelique Cooper who we know, that lives do hang 
in the balance.
    So I would like to also just make a motion that my entire 
statement be offered into the record as read. But I wanted to 
just abbreviate it a little bit, so we can take a little more 
time hearing from our witnesses today. And like I said, when 
Senator Wellstone comes, he will have a chance, also, if he 
wants to make his opening statement, as well.
    [The prepared statement of Senator Grams follows:]

                Prepared Statement of Senator Rod Grams

    I think most Americans are aware that torture still occurs. They 
may have heard about the rape camps in Bosnia, or the cellar of the 
police station in Pristina, Kosovo. But they don't realize that it is 
so widespread, or its crippling effect on entire societies. Torture is 
practiced or condoned in more than 100 nations. And torture isn't used 
as a weapon just against an individual--it is used as a weapon against 
democracy. It is designed to physically and emotionally cripple 
individuals, to render them incapable of mounting an effective 
opposition to a regime or a system of beliefs. Torture doesn't affect 
just the victim--it sends a strong message to the victim's family, 
community, and nation that dissent will not be tolerated. That's why 
torturers so often target the leadership of political opposition. As a 
nation, we cannot stand by and continue to let the victims of torture 
suffer in silence. We must do more than proclaim that the practice of 
torture is abhorrent. We must provide assistance to torture survivors, 
for they truly are not able to help themselves.
    While the practice of torture is not a problem in this country, 
many victims of torture flee to the United States to seek refuge. As 
many as 400,000 torture survivors now live in the United States, and 
many of the survivors are not getting the assistance they need. Other 
survivors of torture remain abroad; they deserve effective treatment as 
well. These foreign torture treatment centers not only help individuals 
physically and mentally heal, they give people a safe place to go where 
they can create the networks necessary to continue their missions.
    Last October marked two important steps toward greater efforts by 
our government to address the needs of victims of torture. First, the 
enactment of the Foreign Affairs Reform and Restructuring Act of 1998 
[Public Law 105-277] effectively imposed an obligation on the U.S. 
Government not to return people to countries in which they face 
subjection to torture. It's hard to believe that before that change our 
law actually permitted the deportation of people to places where it was 
more likely than not they would be tortured, but that was the case. I 
am proud to have been the author of that provision, along with 
Congressman Chris Smith.
    Second, the Torture Victims Relief Act [Public Law 105-320] which 
Senator Wellstone and I cosponsored was finally enacted. It authorized 
$12.5 million over two years for assistance to torture victim treatment 
centers here in the United States and another $12.5 million for 
treatment centers around the world. It also authorized a U.S. 
contribution in the amount of $3 million per year to the United Nations 
Voluntary Fund for Torture Victims, and required that Foreign Service 
Officers be given specialized training in the identification of 
evidence of torture and the techniques for interviewing torture 
victims.
    The only provision of the Torture Victims Relief Act that has been 
fully implemented is the authorization for the increased U.S. 
contribution to the UN Voluntary Fund. No other funds have been 
forthcoming to date. While the Department of Health and Human Services 
did include the full $7.5 million authorization for fiscal year 2000 in 
its budget request for domestic treatment centers, USAID did not 
request any funds for treatment centers abroad. It remains possible for 
USAID to designate funds in our multibillion-dollar foreign aid budget 
for grants to torture victim treatment centers. I encourage USAID to do 
so.
    Because today Senator Wellstone and I are going to raise the bar by 
introducing the Torture Victims Relief Reauthorization Act. This bill 
will increase the authorization level to $10 million for domestic 
treatment centers, $10 million for international centers, and $5 
million for a United States contribution to the Voluntary Fund for 
Torture Victims through fiscal year 2003.
    I look forward to hearing from the Administration witnesses today 
about the reasons why it has not fully implemented the Torture Victims 
Relief Act and steps that can be taken to move this process forward. I 
hope the Administration listens to experts like Doug Johnson from the 
outstanding Center for Victims of Torture in my home state of Minnesota 
and Dr. Inge Genefke of the International Rehabilitation Council for 
Torture Victims, because they have a proven record of excellence in 
this field. And as we will hear from a very courageous torture 
survivor, Ms. Angelique Cooper, lives do hang in the balance.

    Senator Grams. So I am going to probably go through this a 
little bit faster and ask some of the questions a little 
quicker than normal. But again, I want to thank you all for 
being here.
    I would like to start out by asking a couple questions from 
the State Department. Mr. Bennett Freeman, who is here, the 
Deputy Assistant Secretary of State from the Bureau of 
Democracy, Labor and Human Rights.
    Also, let us see who else we have. Ms. Ann VanDusen, who is 
Deputy Assistant Secretary from the Bureau for Policy and 
Program Coordination, USAID. And, of course, Dr. Genefke, 
secretary-general of the International Rehabilitation Council 
for Victims of Torture, and Doug Johnson, who is the executive 
director for the Center of Victims of Torture in the Twin 
Cities. And, as we mentioned, Ms. Cooper is also here to lend 
us some testimony here today.
    I am going to kind of take the questions from left to 
right, if that is all right.
    So, Mr. Freeman, I would like to start with you. Many of 
the nearly 200 treatment centers for victims of torture around 
the world exist in countries where torture has been, and 
continues to be, a very serious problem. Often the host 
governments are hostile to these centers and to their clients, 
and the safety of the personnel and their ability to do work 
that can benefit from an acknowledged relationship with U.S. 
Embassy personnel.
    So my first question is: Are you aware of any U.S. 
Embassies which have made contact or been able to establish any 
kind of relationships with treatment centers for the victims of 
torture?
    Mr. Freeman. Yes, Senator. Let me begin by thanking you for 
chairing this important hearing on this extremely sensitive 
topic. I want to salute you, as well as Senator Wellstone, for 
your leadership on this very important issue.
    To answer your question directly, the State Department, 
both here in Washington and our embassies abroad, is very well 
aware and very appreciative of the important work done by the 
centers around the world. In order to get an even sharper 
appreciation and more specific information on these efforts, 
recently the State Department sent out a cable to every one of 
our diplomatic posts in the world asking for any information 
they had available on centers where victims of torture can be 
treated and counseled.
    We have gotten back a number of interesting and encouraging 
responses from our posts. I can give you an example of one in 
particular, which I provide more detail on in my statement, and 
which I would like to have included in the record.
    Senator Grams. Without objection, it will be included.
    Mr. Freeman. Thank you very much.
    That is the example of a very good effort in Sri Lanka. Our 
embassy in Colombo has established a direct relationship with a 
torture center. And, there is another very good effort underway 
in Nepal, where our embassy has worked directly with USAID and 
with the Department of Defense to secure the donation of a 
plane load of surplus medical supplies and other equipment to 
benefit the Center for Victims of Torture in Kathmandu.
    Those are just two examples of the very many positive 
efforts underway around the world. The people who are working 
in these centers with the support of Dr. Genefke and, of 
course, with Doug Johnson and his center in Minneapolis, are 
really doing the Lord's work. We salute them for it.
    Senator Grams. You have to excuse. I forgot to ask if 
anybody had opening statements. If you did, I would go ahead 
and entertain those statements.
    And, Mr. Freeman, I apologize. So if you had a statement 
that you would like to read parts of or all--it will be all 
entered into the record. But if you have some comments that you 
would like to start out with for the committee, it would 
helpful as well.

  STATEMENT OF BENNETT FREEMAN, DEPUTY ASSISTANT SECRETARY OF 
STATE, BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR, DEPARTMENT 
                            OF STATE

    Mr. Freeman. Well, thank you, Senator. I will very briefly 
just highlight a few aspects of my prepared statement. Again, I 
want to salute you, together with Senator Wellstone, along, of 
course, with Congressman Smith and Congressman Lantos on the 
House side, for your outstanding and sensitive leadership.
    I also want to salute Dr. Genefke, whom I had the privilege 
of meeting the other day, as well as Doug Johnson, for their 
fine humanitarian work in this area.
    I should say on a personal note that I had the privilege of 
visiting the center in Minneapolis in the spring of 1993 with 
then Secretary of State Warren Christopher. It was that visit 
that brought home to me personally for the first time the very 
important, caring work that is done in your home State.
    I am not going to go into any discussion of the substance 
of the work that is done in the centers, both in Minneapolis 
and elsewhere around the world. You have two of the foremost 
experts in the world who can do just that. But I want to 
emphasize that the United States is firmly committed to ending 
torture and to helping individuals who have suffered from this 
debilitating practice.
    We are pleased that the Clinton administration has been 
able to work together with the Congress to advance these goals. 
My Bureau is headed by Assistant Secretary Harold Hongju Koh, 
who is not with us today for one reason, and that is he is in 
Turkey undertaking discussions with Turkish officials on human 
rights issues.
    The single-most important thing that our Bureau does in 
order to shine a spotlight on the practice of torture is to 
publish every February, our Country Reports on Human Rights. As 
you know, Mr. Chairman, the report on each individual country 
includes a section covering findings of torture and other 
cruel, inhuman or degrading treatment or punishment.
    It is a hallmark of our Country Reports that they openly 
report on torture wherever it occurs. We believe that that 
criticism itself helps to curtail the practice of torture in 
some countries.
    In addition to this essential reporting function, our 
Bureau works through its Offices of Bilateral and Multilateral 
Affairs, in particular, to advance our diplomacy against 
torture around the world. I am delighted that my colleague, 
Steve Wagenseil, the Director of our Office of Multilateral 
Affairs and a very experienced diplomat, is behind me today. He 
has spearheaded much of our work through the U.N. Human Rights 
Commission in Geneva, where we have been very active in 
supporting resolutions against torture in both generic and 
country-specific contexts.
    I should say very clearly that not only do we document 
torture through our report, not only do we work multilaterally 
and bilaterally, but we als0 demand an accounting. We feel 
strongly that torturers must be shown they cannot act with 
impunity.
    It is for that reason above all that we have worked very 
closely with the Tribunal for the Former Yugoslavia to document 
a wide array of human rights abuses, war crimes, and crimes 
against humanity, including torture, in Kosovo.
    But demanding justice is only half the battle. I would also 
like to emphasize that the United States is the largest single 
donor to the United Nations Voluntary Fund on Torture. We 
provided $3 million to the fund in this current fiscal year. 
And by the way, that $3 million is both an increase of $1.5 
million over the last fiscal year and dramatically and quite 
necessarily up from what was just $100,000 contribution as 
recently as 6 years ago.
    We also strive to help torture victims in a variety of 
other ways, ranging from protecting survivors from return to 
countries where there is a substantial risk of torture, to 
providing technical assistance to victim treatment facilities.
    Let me say a very quick word about asylum, which of course 
is an important focus of the U.S. Government's overall efforts 
on torture. As stipulated by the U.N. Convention Against 
Torture, asylum seekers are not returned to countries where 
they are most likely than not to suffer torture. In fact, in 
response to the legislation passed last year, the State 
Department and INS have together promulgated regulations 
establishing procedures to ensure that people in the United 
States are not returned to face likely torture in other 
countries.
    I have already mentioned, in direct response to your 
question, Mr. Chairman, how the State Department has encouraged 
our posts throughout the world to look for ways to work with 
and to help local torture centers. But we are doing this in 
other contexts as well, perhaps no more dramatically or 
urgently than in the Balkans, where, sadly and tragically, 
torture has taken place in Kosovo in recent months.
    In a report the State Department released on May 10 
entitled, ``Erasing History, Ethnic Cleansing in Kosovo,'' we 
detailed human rights abuses in Kosovo up to that point, 
including many instances of torture. A second volume will 
complete the story and highlight new evidence about mass 
graves, burning of bodies and evidence, as well as using 
civilians as human shields.
    Let me emphasize that in the Kosovo context, and also more 
globally as well, we have focused on different aspects of 
torture. One I want to highlight just for a minute is very 
specific violence directed against women. This has been a 
horrifying reality in Kosovo and elsewhere.
    We have been working hard to try to address the special 
needs of those who have suffered such atrocities in the context 
of our larger efforts to aid all Kosovar refugees. We have 
funded a $10 million Kosovar women's initiative, which will be 
the centerpiece of the U.N. High Commissioner for Refugee's 
efforts to provide psychosocial support to Kosovar refugees 
affected by violence against women.
    I want to underline the section in my testimony that 
explains that our support to countries for military and police 
training takes into account human rights violations, including 
perpetrators of torture. The Leahy amendment has been an 
important tool in that regard.
    I would like to address one other specific area that is 
very precisely laid out in the landmark act passed last year, 
and that is the provision of training for State Department 
personnel, specifically for our consular officers. We have been 
well aware of concerns about the administration's compliance 
with that specific portion of the act.
    I would like to tell you, Mr. Chairman, and Senator 
Wellstone that I met recently with Ambassador Ruth Davis and 
Steve Browning of the Foreign Service Institute, together with 
several of their colleagues, to discuss in very specific terms 
the Department's efforts to ensure compliance with this 
provision.
    We reviewed our efforts to enhance existing training 
programs for our consular officers on how to identify and 
interact with victims of torture and to direct them toward 
expert assistance.
    The statement you have kindly accepted for the written 
record, Mr. Chairman, includes several paragraphs about the 
ongoing training efforts, particularly for consular officers. 
It also includes a couple suggestions as to how we might 
further enhance those efforts in the months ahead, so that we 
can be absolutely sure that our training efforts are fully 
consistent with the letter and the spirit of the landmark act.
    I would like to conclude by simply saying that it is a 
privilege and a responsibility to be part of the Bureau of 
Democracy, Human Rights and Labor. We expend a considerable 
amount of effort working on the horrifying reality of torture, 
that is still too much with us.
    It is the efforts of the NGO's, in your home State of 
Minnesota, as well as organizations like Dr. Genefke's around 
the world, that really show the way. We appreciate the 
leadership of our two Senators from Minnesota, as well as 
Members on the House side. The State Department looks forward 
to continuing to work with you to do the best job we are able 
to, to confront these very, very painful issues.
    Thank you.
    [The prepared statement of Mr. Freeman follows:]

                 Prepared Statement of Bennett Freeman

    Mr. Chairman and Members of the subcommittee: It is a privilege to 
testify on such an important topic on behalf of the Bureau of 
Democracy, Human Rights and Labor, and Assistant Secretary Harold 
Hongju Koh. Before leaving for Turkey on Wednesday evening, Assistant 
Secretary Koh spoke at the reception honoring you, Mr. Chairman, and 
Senator Wellstone, together with Congressmen Smith and Lantos, for your 
work on the Torture Victims Relief Act and your commitment to helping 
victims of torture. The reception also paid tribute to the individuals 
and organizations, including the Center for Victims of Torture in 
Minneapolis, and the International Rehabilitation Council for Torture 
Victims in Copenhagen, that are doing so much to help.
    I want to salute you, Mr. Chairman, and Senator Wellstone, for your 
sensitive work on behalf of the Center for Victims of Torture in 
Minnesota and other torture treatment centers around the United States. 
Moreover, your leadership on behalf of legislation to help torture 
survivors and their families is an inspiration and an investment in 
healing wounds and repairing lives.
    I first gained an appreciation for the importance of this work in 
May 1993, when I visited the Center in Minneapolis with then-Secretary 
Christopher. It was a moving experience that made me understand the 
difficult challenge of overcoming both the physical and psychological 
wounds brought about by torture. For most Americans, torture is 
virtually inconceivable; it is simply beyond our frame of reference. 
But for all too many around the world, it is a brutal reality that 
leaves scars for a lifetime. Those organizations and individuals that 
work with the victims make a positive impact on shattered and 
traumatized lives, helping torture survivors to recover and become an 
integral part of the larger community.
    In the second panel you will be hearing testimony from expert NGO 
witnesses who work with torture survivors. Therefore, my statement 
focuses on U.S. Government efforts to support the international fight 
against torture and to aid those whose lives have been horribly and 
unjustly damaged by torture.
    Let me emphasize that the United States is firmly committed to 
ending torture and to helping individuals who have suffered from the 
debilitating practice of torture. Both the Clinton Administration and 
Congress share these goals, and we are pleased to work toward them 
together. As President Clinton said last October when he signed the 
Torture Victims Relief Act ``The United States will continue its 
efforts to shine a spotlight on this horrible practice wherever it 
occurs, and we will do all we can to bring it to an end.'' Even prior 
to passage of that legislation, and since, the Administration has been 
working on the commitments embodied in the bill.
    One of the backbones of my Bureau's--and indeed the U.S. 
Government's--work to promote human rights is our annual Country 
Reports on Human Rights. In these reports, which we submit to the 
Senate Foreign Relations Committee every February, we strive to cover 
the internationally-recognized individual, civil, and political rights 
set forth in the Universal Declaration of Human Rights, specifically 
including freedom from torture. Mr. Chairman, as you know, the report 
on each individual country includes a section covering findings of 
torture and other cruel, inhuman, or degrading treatment or punishment. 
It is a hallmark of our Country Reports that they openly report on 
torture wherever it occurs. We believe that that criticism itself helps 
to curtail abusive practices in many countries.
    In addition to this essential reporting function, our Bureau for 
Democracy, Human Rights and Labor works on these issues on a regular 
basis, especially in our Offices of Bilateral and Multilateral Affairs. 
When we find evidence of torture, we use bilateral channels to raise 
our concerns forcefully with offending governments, consistently 
raising these important concerns at the highest levels. I had the 
opportunity to raise concerns related to torture with the governments 
of Vietnam and Cambodia when I visited those countries two weeks ago. 
In what was the 7th round of our bilateral human rights dialogue with 
Vietnam, I discussed prison conditions, including beatings of 
prisoners, with Vietnamese officials. In Cambodia, because torture in 
that country is closely bound up in its culture of impunity and is 
common in police custody when securing confessions from suspects, I 
gave the Minister of Justice a copy of a recent report on impunity 
authored by Human Rights Watch together with two leading Cambodian 
NGOs.
    Mr. Chairman, we also work through a number of multilateral 
institutions to press our specific concerns about torture. We can be 
proud that the U.S. has long played a vigorous leading role in 
formulating the United Nations Declaration on Protection from Torture 
and the Convention Against Torture, and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, which we ratified in 1994. We are 
proud to comply with the terms of the Convention. At the same time, we 
urge countries that have ratified the Convention to abide by its 
tenets, and we urge countries that have not yet ratified to do so.
    At the United Nations Commission on Human Rights, we support 
country-specific resolutions that mention cases of torture and thematic 
resolutions that support the work of the United Nations Special 
Rapporteur on Torture. We urge all countries to cooperate fully with 
the Rapporteur, underscoring how vitally important it is that the 
Rapporteur be independent and have full access to human rights 
activists and abuse victims with full safeguards protecting these 
sources.
    Simply put, where there is evidence of torture, we demand an 
accounting. Torturers must be shown that they cannot act with impunity. 
For example, the United States took the lead in pushing for the 
formation of International Criminal Tribunals on the former Yugoslavia 
and Rwanda, to bring to justice those responsible for torture and other 
crimes. Most recently, we have worked very closely with the Tribunal 
for the former Yugoslavia to document a wide array of human rights 
abuses, war crimes, and crimes against humanity, including torture in 
Kosovo. We are also seeking to establish mechanisms of accountability 
for the Khmer Rouge and the current regime in Iraq, and we support the 
work of truth commissions the world over, including the Truth and 
Reconciliation Commission in South Africa, as well as those in 
Guatemala and El Salvador.
    But demanding justice is only half the battle. Let me also 
emphasize that the United States is the largest single donor to the 
United Nations Voluntary Fund on Torture, providing $3 million in FY99, 
and increase of $1.5 million over FY98. We also strive to help torture 
survivors in a variety of ways, ranging from protecting survivors from 
return to countries where there is a substantial risk of torture to 
providing technical assistance to victim treatment facilities.
    We are committed to protecting those at risk of torture by ensuring 
that, as stipulated by the U.N. Convention Against Torture, asylum-
seekers are not returned to countries where they are more likely than 
not to suffer torture. In fact, in response to legislation passed last 
year, the Department of State and the Immigration and Naturalization 
Service promulgated regulations establishing procedures to ensure that 
persons in the U.S. are not returned to face likely torture. The 
Department of Justice is also establishing a working group that will be 
dedicated to identifying and taking appropriate action--prosecution, 
extradition, or deportation--against torturers who may be in the U.S.
    Mr. Chairman, the State Department also encourages our posts 
throughout the world to look for ways to work with and help local 
torture centers. One recent example is a cable we sent all of our posts 
asking them to contact and establish relationships with treatment 
centers and report examples of financial and diplomatic support of such 
centers' activities. We have received many encouraging responses from 
posts around the world. To cite just one example, our Embassy in Sri 
Lanka maintains close contact with two organizations that treat torture 
victims, the Family Rehabilitation Center and a group called Survivors 
Associated. In addition, the U.S. has funded a $4,400 grant to the 
Family Rehabilitation Center administered through the Asia Foundation 
to raise awareness in Sri Lanka about the issues that torture victims 
face.
    Often, torture is accompanied by a wide range of other human rights 
abuses or occurs in the context of humanitarian crises, as we have seen 
in the Balkans and the Great Lakes region of Africa. Therefore, a full 
response to torture requires addressing the broader situation in which 
it has been perpetrated. The United States is the leading contributor 
to international humanitarian assistance and has funded psychosocial 
and other aspects of health care in response to the needs of refugees 
and conflict victims around the world who have suffered torture.
    In Kosovo, our current human rights and democratization priorities 
focus on long-term structural goals such as judicial training and 
establishing a human rights ombudsman. Of course, we seek to find long-
term solutions while at the same time ensuring that the human rights 
protection mechanisms in the immediate post-conflict environment 
provide effective remedies for all Kosovars. We will continue to work 
with the U.N. Mission in Kosovo toward these important goals.
    On May 10, the State Department released a report entitled, 
``Erasing History: Ethnic Cleansing in Kosovo,'' which detailed human 
rights abuses in Kosovo up to that point, including instances of 
torture. A second volume will complete the story and highlight new 
evidence about mass graves, burning bodies and evidence, using 
civilians as human shields, and other violations of human rights. We 
hope to release this report later this year and we will be prepared to 
brief interested Senators and staff as soon as that report is 
available.
    As we noted in ``Erasing History,'' Kosovo is among the recent 
conflicts in which we have seen rape and other violence against women 
used as a weapon of war. Because violence against women is of great 
concern to us, the U.S. is working hard to address the special needs of 
those who have suffered such atrocities in the context of its larger 
efforts to aid all Kosovar refugees. We funded a $10 million Kosovar 
Women's Initiative which will be the centerpiece of the U.N. High 
Commissioner for Refugees' efforts to provide psycho-social support to 
Kosovar refugees affected by violence against women. The UNHCR has also 
sought to identify victims of such violence in its overall assistance 
efforts to Kosovar refugees. As relief efforts continue to shift from 
short-term to long-term efforts, more programs will emerge that address 
refugees' psycho-social needs.
    The U.S. has also funded a project by the World Health Organization 
(WHO) that will provide counseling and health follow-up to survivors of 
violence against women. This initiative is being designed and will 
begin to be implemented soon.
    To aid victims of rape and other women's human rights abuses around 
the world, the U.S. has established the Women Survivors Project. This 
project, which my Bureau is in the process of funding, will work with 
indigenous non-governmental organizations in several countries to 
provide counseling, social reorientation activities, and training in 
income-generating activities to mainly women survivors of genocide. The 
project includes a $100,000 grant to an indigenous nongovernmental 
group in Rwanda called Rwanda-Women-Net that is working particularly 
with traumatized survivors of genocide and rape.
    Through its Polyclinic of Hope project, Rwanda-Women-Net provides 
treatment services to women of different ethnic backgrounds who shared 
a common trauma of rape and violence during the 1994 genocide. In 
addition, it constructs shelters for vulnerable women and their 
families. Our grant will assist widows and girl heads-of-household and 
their families in psycho-social adjustment, shelter building, and 
skills training activities.
    We also maintain a firm commitment to see that U.S. military and 
police training do not benefit known human rights violators, and that 
security forces that engage in abuses do not use U.S.-produced 
equipment to do so. The Administration's commitment to this principle 
was reinforced by recent legislation requiring increased attention to 
the record of security force units receiving our assistance. We have 
worked hard to ensure that our embassies understand the new provisions 
of the Foreign Operations and the DOD Appropriations and that each 
embassy has in place a plan to ensure that it will comply with the law.
    In sum, we believe that our efforts against torture, especially our 
support for treatment programs gives hope to those seeking human rights 
and democracy. We believe that this support reflects and reinforces our 
national commitment to combating the practice of torture and upholding 
our most cherished American values.
    We are well aware of concerns about the Administration's compliance 
with the portion of the Torture Victims Relief Act that calls for 
training for consular personnel on how to interact with victims of 
torture. This issue was highlighted again at a hearing on the House 
side last month on this same topic. I recently met with Ambassador Ruth 
Davis and Dean Steve Browning of the Foreign Service Institute (FSI) 
and several of their colleagues to discuss the Department's efforts to 
ensure compliance with this provision. We reviewed our efforts to 
enhance existing training programs for our consular officers on how to 
identify and interact with victims of torture and to direct them toward 
expert assistance. This is an interagency process involving not only my 
Bureau and FSI, but also the Bureau of Consular Affairs, and 
potentially others like the Bureau Population, Refugees, and Migration 
(PRM).
    Currently, FSI's basic consular training course includes a role-
playing session in which an American citizen has been tortured in a 
foreign jail, and the consular officer must know how to identify 
symptoms of torture, be sensitive to the victim's needs, and point the 
person toward help. We plan to enhance this important segment by 
emphasizing more fully and explicitly that such concerns and need for 
sensitivity apply to non-American citizens as well.
    In the advanced consular course, my Bureau and others have the 
opportunity to conduct a class on our issues, and we are committed to 
ensuring that torture victims' concerns are included in the human 
rights dimension of this training. FSI's training for political 
officers also includes components on torture, along with a wide range 
of other global issues, including human rights concerns.
    Mr. Chairman, I know you have heard from other Administration 
representatives that the U.S. report to the Committee on Torture, as 
required by the Convention on Torture, is near completion. I am pleased 
to inform you that we expect the report to be submitted shortly, and we 
would be pleased to brief the Committee on this report when it has been 
submitted to the United Nations Committee Against Torture.
    In closing, we extend our concern and regard to individuals who 
have experienced the cruelty of torture. We honor those at the Center 
for Victims of Torture, and others, who labor at direct care, 
education, and prevention. And finally, we reaffirm our commitment to 
this cause, as well as our desire and willingness to work closely with 
Congress on these complex and wrenching issues.
    Thank you, Mr. Chairman. I am ready to take any questions you may 
have.

    Senator Grams. I would also like to hear from Ms. VanDusen 
and the other members of our panel today. But Senator Wellstone 
has joined us, and I would like to give him an opportunity, if 
he has any, to give any remarks that he would like to make as 
well.
    Senator Wellstone. I appreciate it. I actually a little 
later on to maybe get a chance to speak, but let us--we still 
have a final vote. And I just apologize that we have had all 
these votes all day. Let us just hear from the panel. I 
appreciate your courtesy, though.
    Senator Grams. All right.
    Ms. VanDusen.

  STATEMENT OF ANN VANDUSEN, DEPUTY ASSISTANT ADMINISTRATOR, 
  BUREAU FOR POLICY AND PROGRAM COORDINATION, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. VanDusen. Thank you, Mr. Chairman, Senator Wellstone. I 
appreciate the opportunity to be here today to talk a little 
bit about the USAID's efforts to prevent and control the 
worldwide problem of torture.
    And given that you still have another vote and time is 
short, I am just going to make five points. My testimony for 
the record has a lot of details about specific country 
programs. But if I could focus just on how we approach this 
very difficult issue and deal with some of the questions that 
USAID is asked about our program, I think that will set the 
framework for the discussion that I know you want to have.
    First, our definition of torture is an inclusive one. It 
includes a man who has been beaten or maimed, a woman who has 
been raped, especially when rape is used as an instrument of 
war, or an individual, and it is often a child, who has been 
forcibly recruited into a rebel army through beatings and 
threats. All of these people badly need help and understanding 
in dealing with their trauma, trauma that lasts long beyond the 
initial acts.
    USAID's focus is also a broad one, focusing both on 
treatment and on prevention. In treating the victims of 
torture, we try to focus on the community and strengthening the 
community's capacity to deal with the effects of the trauma. 
And our goal ultimately is to establish and strengthen the 
programs that will continue to serve the community after U.S. 
funds are withdrawn.
    In the prevention area, our goal is to encourage the 
development of institutions, such as free press, independent 
judiciaries, human rights watchdog groups, that have been 
proven effective in preventing torture from occurring, and 
helping to develop the mechanisms that hold perpetrators 
accountable.
    Our report to Congress, which was submitted in April, has 
many specific details on the program that we are undertaking 
now. But it was prepared in March and submitted in April when 
the full dimension of the Kosovo conflict was only barely 
understood.
    Must we stop?
    Senator Wellstone [presiding]. No. No. Please. And by the 
way, when I said another vote, we will run out quickly and come 
right back. I do not think you should rush. This is too 
important. It is way too important. Do not rush.
    Ms. VanDusen. All right. Well, thank you. There are only 
three other points.
    I do want to provide you with update on our program, 
because a significant amount of additional work has been done 
in the last 3 months because of the Kosovo crisis.
    As everyone is very acutely aware, many Kosovars suffered 
torture and other forms of brutality, as well as the trauma of 
being forced from their homes, seeing their friends and family 
killed, and return to a devastated homeland. And I would say 
the systematic use of rape has been particularly traumatic 
given the terrible stigma that it places on the women in that 
society.
    We have mounted major programs just in the last several 
months to try to address the psychosocial counseling needs of 
the refugees and the returned refugees. I have detailed 
information which may be of interest to you. What we have tried 
to do is set up programs that can follow the refugees when they 
go back to their homeland.
    For instance, in Macedonia we have been supporting programs 
by the International Catholic Migration Committee and the 
Doctors of the World that include therapeutic activities for 
girls and women suffering from rape and other forms of trauma.
    Doctors of the World is also working with local Kosovar 
NGO's, including the Center for the Protection of Woman and 
Children, to improve their ability to take on more programs.
    In Albania, the Catholic Relief Services social workers 
have provided trauma counseling to woman and girls. The 
activities range from simple trauma counseling, although hardly 
simple, to training of social and community workers in the 
identification and referral of severe cases.
    In addition to this, which we estimate has added another 
$3.7 million in specific psychosocial work to our ongoing 
program, we are currently reviewing proposals for a 3-year 
program focused on social rehabilitation in Kosovo.
    The other two points I want to raise have to do with 
questions that keep coming up about the USAID program. I want 
to try to clarify. The first one has to do with why the 
administration has not requested funds specifically authorized 
in the Torture Victim Relief Act.
    The answer is that the administration does not see the need 
for a separate appropriation in order to fund these programs. 
Rather, USAID draws on funds that are already appropriated for 
health programs, for democracy programs, for humanitarian 
assistance programs, for programs in Eastern Europe to fund 
programs that prevent torture and treat torture victims. It is 
comparable to the way we fund programs for orphans, for 
displaced children, for victims of war.
    In our report, which was submitted in April, we estimated 
that we would be committing roughly $7.5 million to programs 
that prevent, treat and deal with the consequences of torture.
    The $3.7 million additional that has gone so far into the 
Kosovo program and the additional amount that will be committed 
as a result of the social rehabilitation programs means that 
this year we will probably be committing in excess of $10 
million to this specific area.
    The second question that we are often asked is why do we 
not support the work of treatment centers affiliated with the 
International Rehabilitation Council for Tortured Victims. The 
simple answer is that we do, and we hope to do more.
    In Sri Lanka, as Mr. Freeman mentioned, we are supporting 
the work of the Family Rehabilitation Center, which provides 
trauma counseling to victims of torture, as well as physical 
and psychological therapy for victims of war.
    And we are working with the center specifically to continue 
a campaign on preventing torture and raising public awareness 
of the legal and human rights aspects of torture.
    In Peru, we have been working with another affiliate of the 
International Council, the National Coordinator on Human 
Rights. There, we are doing studies on human rights abuse 
related to torture. And we will be following that up with a 
public campaign against torture.
    But we are not stopping there.
    Senator Wellstone. If you could--I might make you 
summarize, because then I will have to quickly vote. And then 
we will come right back for your testimony.
    Ms. VanDusen. Let me conclude by saying we are not going to 
stop with that. That is not enough. We have met with Dr. 
Genefke. She has provided us with specific proposals related to 
centers in countries where USAID has programs. And we are 
sharing those with our missions. We are quite certain that this 
will result in increased collaboration.
    Senator Wellstone. Well, let me thank you.
    [The prepared statement of Ms. VanDusen follows:]

                   Prepared Statement of Ann VanDusen

    Mr. Chairman and Members of the Subcommittee: I appreciate this 
opportunity to outline the U.S. Agency for International Development's 
efforts to prevent and control the worldwide problem of torture, and to 
assist in the treatment of victims of torture.
    In December, we celebrated the fiftieth anniversary of the 
Universal Declaration of Human Rights, which prohibits torture and 
reaffirms the rights of all individuals to life, liberty and security. 
USAID has recommitted itself to ensuring that U.S. foreign assistance 
helps to secure all the rights outlined in that Declaration. Certainly 
the concerns of both Congress and the Administration were embodied in 
the Torture Victims Relief Act of 1998, which the President signed last 
October.
    Last month, many people gathered in Washington to commemorate the 
2nd annual UN International Day in Support of Torture Victims and 
Survivors. We at USAID strongly support their cause. Many of our 
programs, especially those in the democracy and human rights area, 
focus on preventing torture from occurring in the first place. Other 
programs fund activities that address victims of torture and severe 
trauma, and that train health care workers and others who must treat 
these victims.
    Our definition of torture is an inclusive one. It includes the man 
who is beaten or maimed, the woman who is raped for reasons that are 
both political and psychological--rape as an instrument of war, and the 
child who is forcibly ``recruited'' for a rebel army by threats and 
beatings. All of these people need help and understanding in dealing 
with trauma that lasts far beyond the initial act of violence.
    USAID has long provided assistance to non-governmental 
organizations (NGOs) and other institutions for programs to prevent 
torture and trauma and to treat their victims. Let me summarize some of 
our specific activities around the world.
                             latin america
    The spread of democracy in Latin America in recent years has 
dramatically reduced the incidence of torture and human rights abuse in 
the region. USAID has strengthened that trend in a number of ways.
    Our funding of justice and rule of law programs in Latin America 
began more than fifteen years ago. In Fiscal Year 1999, our Bureau for 
Latin America and the Caribbean designated about $42 million, or 42 
percent of its democracy programs budget, for rule of law programs. 
About $10 million of that was designated for police reform programs, 
implemented by the Department of Justice's International Criminal 
Investigation Training Program, with programs in Bolivia, Dominican 
Republic, El Salvador, Guatemala, Haiti, Honduras, Nicaragua and 
Panama. These programs work in a variety of ways to overcome the long 
history of police abuse that exists in some countries.
    We have supported regional institutions that protect and promote 
human rights, including the Inter-American Commission on Human Rights, 
the Inter-American Court of Human Rights (which marks its 20th 
anniversary this year), and the Inter-American Institute of Human 
Rights. As part of its regional democracy programming, USAID supports 
the work of the Inter-American Institute for Human Rights with a three-
year grant of $4.7 million that started in 1997. As part of its 
program, the Institute supports the work of about fourteen ombudsman 
offices, through a federation of ombudsmen. The purpose of these 
offices is to create a visible mechanism to deal with government-
sponsored abuses of human rights. Torture is an important focus of 
their work.
    The Institute also has created a Program for the Integrated 
Prevention of Torture. Initially, the focus was on training health 
professionals in the rehabilitation of torture victims. The current 
objective is to train prison officials, improve prison conditions, and 
otherwise give priority to prevention of torture.
    In Colombia, USAID is assisting torture victims through assistance 
to human rights training programs, including training of the Human 
Rights Units of the Office of Prosecutor General. In Guatemala, USAID 
has supported work in two relevant areas. The Historical Clarification 
Commission received $1.5 million in FY 1997 and FY 1998. Another $2.7 
million has been invested in treating victims of human rights abuses in 
the last two fiscal years. Most of this funding was managed by the 
International Organization for Migration (IOM), which in turn makes 
sub-grants to local and community groups best suited to respond to a 
variety of human rights abuses, including torture.
    In Haiti, since 1994 USAID has supported the Human Rights Fund. The 
initial year's funding of $1 million assisted victims of human rights 
abuses, including rape, beatings in custody and other forms of torture. 
More than $1 million was spent during the next two years, also 
exclusively on assisting victims. The most recent extension of the fund 
through the end of August 1999 is for $2 million, of which 
approximately $600,000 is for victim assistance and treatment. This 
funding is directed where it can do the most good, primarily to 
individual physicians who run their own treatment programs and who work 
to establish a countrywide network for referral and treatment. The 
remainder goes to prevention programs directed at police/community 
relations and public human rights education. We are pleased that the 
incidence of human rights abuses in Haiti has declined in recent years, 
in part because of improved training of the national police.
    In Peru, since 1994, USAID has extended assistance to victims of 
gross violations of human rights through an umbrella agreement with 
Catholic Relief Services, which in turn provides grants to local NGOs. 
These groups provide legal assistance to those wrongly accused of 
terrorism, many of whom have been tortured. Other programs document 
torture cases. Last year about $375,000 was used to support the Legal 
Defense Institute and the Legal Coordinator for Human Rights, and the 
government's Office of the Ombudsman. This year's commitment of 
$125,000 funds studies on human rights abuses related to torture, to be 
used in a public campaign against torture.
                                 africa
    In Africa, USAID has a variety of programs directed at torture and 
trauma. For example, in 1998 the Agency provided $1.5 million for a 
human rights program in South Africa, with strong emphasis on victims 
of violence and torture.
    In Angola, twenty years of civil war have taken an enormous toll on 
the emotional, psychological and physical health of Angola's people. 
The USAID program includes treating and rehabilitating war-traumatized 
children, landmine victims, widows and former child soldiers. USAID 
supports several interventions addressing the impact of this violence 
on children and other war victims.
    In Liberia, the Displaced Children and Orphans Fund supports a 
number of programs that assist children and youth who have been 
severely affected by years of conflict in that country. The Patrick 
Leahy War Victims Fund supports clinics that assist landmine victims 
and treat people who have been tortured.
    In Sierra Leone, USAID is providing $1.3 million through UNICEF to 
assist children who have been separated from their families, 
involuntarily conscripted into military groups or otherwise severely 
affected by violence. Many of these children were physically or 
psychologically tortured.
    In Uganda, with financing from the Displaced Children and Orphans 
Fund, USAID initiated a $1.5 million program to treat and rehabilitate 
demobilized child soldiers and other affected children who were 
recruited or impressed into insurgent armies and who suffered beating, 
torture and rape. Many of these children and youths were forced to 
practice, or were witnesses to, extreme forms of cruelty.
                             asia/near east
    In Cambodia, to address the harsh aftermath of the Khmer Rouge 
reign of terror, the Harvard School of Public Health's Program of 
Refugee Trauma has joined with the Ministry of Health in training 
primary care physicians to recognize and treat mental illness and 
trauma. We have supported this program, which has refugees, children, 
landmine victims and widowed women as its target beneficiaries.
    USAID is also taking action to address one of the most serious 
human rights, health and economic problems in Asia: the trafficking of 
women and girls in a modern-day slave trade, for both labor and sexual 
purposes. This year, USAID launched the Anti-Trafficking in Women and 
Children Initiative. Among other goals, this five-year effort will help 
develop and implement innovative, on-the-ground trafficking prevention 
efforts in South and Southeast Asia.
                     europe/new independent states
    In Bosnia, USAID has supported programs that provide trauma 
counseling and medical assistance for war victims, including those 
tortured and raped. Implementing partners include the International 
Human Rights Law Group and Delphi International. Other funding to local 
NGOs has been provided to offer counseling to victims of torture, rape 
and other atrocities.
    In Georgia, assistance is provided through the Horizontal 
Foundation for organizational development and training to such groups 
as the Committee Against Torture, Organization for the Defense of Human 
Rights and Social Security of Prisoners, Media (medical experts), and 
other human rights NGOs. Also, the Liberty Institute has received 
funding to track human rights abuses, particularly by police.
    Finally, we are all painfully aware that many Kosovars suffered 
rape, torture and other forms of brutality, as well as the trauma of 
being forced from their homes, seeing their friends and loved ones 
killed, and returning to a devastated homeland. Rape has been 
particularly traumatic. In Kosovo, to have been raped places a terrible 
stigma on a woman. The community, even her family, may shun her for a 
violent act of which she was the innocent victim.
    In general, no matter the cause of the trauma, the symptoms 
manifested are the same, and include depression, nervousness and 
tension. The more severely traumatized require trained and skilled 
assistance to work through the crisis. USAID moved rapidly to address 
the counseling and treatment needs of Kosovo's refugees while they were 
in camps in Macedonia and Albania.
    In the refugee camps, USAID supported assistance to trauma victims, 
mostly through our Office of Foreign Disaster Assistance, by training 
health providers, teachers, and parents, and by strengthening local 
service providers. In Macedonia, we supported programs by the 
International Catholic Migration Committee and Medecins du Monde that 
included therapeutic activities for girls and women suffering from rape 
and other forms of trauma. In Albania, Catholic Relief Services social 
workers provided trauma counseling to girls and women. We estimate that 
USAID's total funding so far this year in Kosovo for trauma treatment 
and training activities has been about $3.7 million.
    USAID intends to use supplemental funds made available for FY 1999 
to continue treatment services for victims of torture and rape in 
Kosovo. The Kosovo Humanitarian and Social Assistance Program will 
provide $20 million over three years to design and implement activities 
that respond to the most crucial and evolving needs of Kosovars as they 
rebuild their lives. A major objective of this program is to provide 
treatment and training efforts that assist communities, and 
particularly children, to cope with trauma, displacement and loss.
    Mr. Chairman, we at USAID share your concern about torture wherever 
it exists. In Kosovo and throughout the world, we intend to use every 
means at our disposal to prevent these abuses from happening and to 
care for the victims of torture and trauma.
    Thank you. I will be glad to take your questions.
                                 ______
                                 

    Report to the Subcommittee on Foreign Operations, Committee on 
    Appropriations, U.S. House of Representatives, Concerning USAID 
                Programming to Prevent and Treat Torture

    HAC Report No. 105-719, accompaning H.R. 4569, recommends that 
USAID make best efforts to allocate $5 million to support treatment 
centers and programs in foreign countries for victims of torture. The 
Committee requested USAID to report by December 1, 1998 on 
implementation of this recommendation.
    This year, we celebrated the fiftieth anniversary of the Universal 
Declaration of Human Rights, which prohibits torture and reaffirms the 
rights of all individuals to life, liberty and security. USAID has 
recommitted itself to ensuring that U.S. assistance helps to secure the 
``universal and effective recognition and observance'' of the rights 
outlined in that declaration. Many Agency programs, especially those in 
the democracy and human rights area, are directed at preventing torture 
from occurring in the first place. We are confident that, with a 
variety of program interventions suited to local circumstances, USAID 
is meeting the intent that we address the specific needs of torture 
victims. From experience, the Agency believes that both treatment and 
prevention are necessary for an effective response to the scourge of 
torture. Overall, USAID treatment, prevention and related programs 
amount to more than the $5 million benchmark recommended by the 
Committee.
                               background
    For many years, USAID has, particularly through its democracy and 
human rights programs, provided assistance to non-governmental 
organizations (NGOs) and others both to help prevent the occurrence of 
torture and to treat directly the victims of torture. For instance, in 
1998 the Agency's human rights program in South Africa totaled $1.5 
million and placed strong emphasis on victims of violence and torture. 
In 1995, the Minnesota-based Center for the Victims of Torture received 
a $250,000 grant to provide training and technical assistance for 
Turkish doctors and human rights workers. Additional sums also went to 
the Center to train Bosnian and Croatian torture treatment volunteers. 
With USAID funding, the Inter-American Institute for Human Rights 
initiated in 1995 a region-wide effort to train medical personnel to 
recognize and to treat torture victims. These programs are designed to 
help rehabilitate the victims ot torture both physically and 
psychologically, and to help reintegrate them into society.
    There are many other examples of torture treatment programs, but 
their racognition within USAID as a unified, discrete programming 
element has not been distinguished from Agency responses to a range of 
other human rights abuses. Nonetheless, in order to be responsive to 
the Subcommittee's request, USAID surveyed country programs where the 
Agency has undertaken programs that address the different aspects of 
the crime of torture. For a variety of reasons, the data has been 
difficult to gather.
    First, while the definition of torture is relatively clear, the 
term torture is not officially used as a programming category, although 
USAID programs may address problems associated with torture. For 
instance, USAID is increasing activities designed to reduce the 
incidence of rape, trafficking in women and girls, and other sexual 
crimes. Although rape is often used as a weapon of war and is one of 
the most pervasive and demonic torture methods, USAID programmming in 
this area is not explicitly identified as addressing either the 
prevention or treatment of torture. Similarly, USAID is involved in 
treating victims of landmines and other terrifying means of 
intimidation resulting in loss of limbs. Yet these, too, are not 
categorized as torture treatment programs. There is also important 
programming to demobilize child soldiers, many of whom have been 
tortured to inflict the requisite level of fear to keep them under 
arms. Money spent to treat them medically and to provide psychosocial 
counseling is not recorded as a torture treatment program, although 
certainly this is the goal of the effort.
    Second, to limit program focus on treatment of torture victims 
often miscasts the importance of addressing prevention concerns. The 
sheer magnitude, for instance, of treating the torture and other 
victims of the Khmer Rouge in Cambodia highlights the need to direct 
attention to prevention work. Activities falling under the prevention 
rubric include assistance in the drafting of anti-torture legislation 
and training police officials to do their jobs without resort to 
torture. Futhermore, in settings where funds are used for truth 
commissions and other reconciliation tools, the line distinguishing 
prevention from treatment is not clear.
    Third, with rare exception, budgeted amounts which might include 
funding for victims of torture are characterized as programs assisting 
victims of human rights abuses or war.
    Finally, and based on the above, dollar amounts associated with 
either prevention or treatment programs necessarily are imprecise.
                usaid programming for victims of torture
    The following provides short summaries of the types of specific 
program activities that USAID implements which address either torture 
prevention or treatment concerns. Many of these programs will continue 
in FY 2000, but, given the informational constraints described above, 
we are providing approximate figures for this year.
Latin America (LAC)
    Regional: Offices of the Human Rights Ombudsman have been supported 
by USAID in a number of countries, including Bolivia, Ecuador, 
Nicaragua, Guatemala, and Peru. Legislation creating these offices 
exists throughout the region. The purpose of these offices is to create 
a visible mechanism to deal with government-sponsored abuses of human 
rights. As is outlined in a few of the following entries, but is 
generally the case throughout the region, an important focus is 
torture, including promoting treatment for its victims but increasingly 
to prevent it from occurring in the first place.
    USAID also supports, as an element of its regional democracy 
programming, the work of the Inter-American Institute for Human Rights. 
The current three year grant of $4.7 million was signed in 1997. The 
Institute supports the work of the various Ombuds offices. It also has 
created a Program for the Integrated Prevention of Torture, initiated 
in 1995. Initially, the focus was on training health professionals in 
the rehabilitation of torture victims. The current objective, set in 
1997, is to train prison officials, improve prison conditions, and 
otherwise give priority to prevention of torture.
    Colombia: USAID is assisting torture victims through assistance to 
human rights training programs, including training of the Human Rights 
Units of the Office of Prosecutor General. Specific, dedicated amounts 
are not easily segregable.
    Guatemala: USAID has supported work in two relevant areas. The 
Historical Clarification or Truth Commission received $1.5 million in 
FY '97 and '98. Another $2.7 million has been invested in treating 
victims of human rights abuses in the last two fiscal years. Most of 
this funding was managed by the International Organization for 
Migration (IOM), which in turn makes sub-grants to local and community 
groups best suited to fashion responses for a variety of human rights 
abuses, including torture.
    Haiti: Beginning in 1994, USAID has supported the establishment of 
a Human Rights Fund. The initial year's funding of $1 million assisted 
victims of human rights abuses, including political rape, beatings in 
custody and other forms of torture. More than $1 million was spent 
during the next two years, also exclusively on assisting victims. The 
most recent extension of the fund through the end of August 1999 is for 
$2 million, some $600,000 of which is for victim assistance and 
treatment. This funding is directed where it can do the most good, 
primarily to individual physicians running their own treatment programs 
and who are working to establish a country-wide network for referral 
and treatment. The remainder is going to prevention programs directed 
at police/community relations and public human rights education. The 
move to more forward-looking prevention oriented activities is 
noteworthy, as well as the fact that the incidence of gross human 
rights abuses in Haiti has declined in recent years due, in part, to 
increasingly better trained and self-disciplining national police.
    Peru: Since 1994 USAID has extended assistance to victims of gross 
violations of human rights through an umbrella agreement to Catholic 
Relief Services, which in turn provides grants to local NGOs. These 
groups provide legal assistance to those wrongly accused of terrorism. 
A significant number report they have been tortured. Unspecified 
amounts also have gone to document torture cases. In the last fiscal 
year about $375,000 was used to support the Legal Defense Institute and 
the Legal Coordinator for Human Rights (NCHR), and the government's 
Office of the Ombudsman, Human Rights Division. This year's commitment 
of $125,000 to the NCHR funds studies on human rights abuses related to 
torture, to be followed by a public campaign against torture.
Africa
    Angola: Twenty years of civil war has taken an enormous toll of the 
emotional, psychological and physical health of Angola's people, 
especially children. The USAID program includes treating and 
rehabilitating war-traumatized children, landmine victims, and widows 
and former child-soldiers. USAID supports several interventions 
addressing the impact of this violence on children and other war 
victims. Assistance is provided through the Displaced Children and 
Orphans Fund to identify, reunite, and reintegrate children who have 
been separated from their families, including underage soldiers. USAID 
supports a nation-wide program to strengthen family and community 
capacity to identify and address symptoms of psychological and social 
distress in children. The process uses elements of western psychology 
and traditional Angolan culture to provide teachers, parents, and other 
child-care providers with the understanding and tools to assist in the 
reintegration into the social, educational and communal mainstream of 
about 350,000 children. USAID also provides, with resources from the 
Leahy War Victims Fund, support for the manufacture, fitting, and 
maintenance of orthopedic devices for landmine victims provides, and 
support for counseling and vocational training for these victims.
    Liberia: The Displaced Children and Orphans Fund supports a number 
of programs that assist children and youth who have been severely 
affected by years of conflict in that country. The Patrick Leahy War 
Victims Fund also, in part, supports clinics assisting amputees through 
psychological and medical treatment. The percentage of these victims 
who were tortured is quite high.
    Sierra Leone: USAID is providing $1.3 million through UNICEF to 
assist children who have been separated from their families, 
involuntarily conscripted into military groups or otherwise severely 
affected by violence. Many of these children were physically or 
psychologically tortured. Funds also are available in this country to 
assist the many victims of amputation and other forms of physical 
mutilation.
    Uganda: With financing from the Displaced Children and Orphan's 
Fund, USAID initiated a $1.5 million program to treat and rehabilitate 
demobilized child soldiers and other affected children who were 
recruited or impressed into insurgent armies. Many of these children 
and youths were trained to practice, or were witnesses to, extreme 
forms of cruelty.
Asia/Near East
    Cambodia: To address the harsh aftermath of the Khmer Rouge reign 
of terror, Harvard's School of Public Health's Program of Refugee 
Trauma has joined with the Ministry of Health in training primary care 
physicians to recognize and treat mental illness. Geared to training 
some 100 doctors and then institutionalizing the training program in 
the curriculum of the National School of Medicine, the effort will 
invest some $800,000 from January 1996 through the end of 1999. Target 
beneficiaries are refugees, children, landmine victims and widowed 
women.
Europe/New Independent States
    Regional: USAID programming in this region, as in the other parts 
of the world, generally does not explicitly target torture treatment 
programs. However, through our strong emphasis on human rights 
programming throughout the region USAID funds a number of programs, 
generally through NGOs, seek both to prevent torture and to assist the 
victims of torture.
    Bosnia: USAID has supported programs that provide trauma counseling 
and medical assistance for war victims, including those tortured by 
rape and other means. Implementing partners have been the International 
Human Rights Law Group and Delphi. Other funding to local NGOs has been 
provided to offer counseling services to victims of torture, rape and 
other atrocities. The incidence of these crimes has greatly diminished 
since the signing of the Dayton Accords, resulting in more expansive 
human rights and training programs.
    Russia: Assistance to work on torture issues is provided 
indirectly, in part through the Andrei Sakharov Museum and Center, 
which focuses on memorializing the horrors of the previous regime as a 
way of ensuring that they are not repeated.
    Georgia: Assistance is provided through the Horizontal Foundation 
for organizational development and training to such groups as the 
Committee Against Torture, Organization for the Defense of Human Rights 
and Social Security of Prisoners, Media (Medical experts), and other 
human rights protection NGOs. The Liberty Institute received funding to 
track human rights abuses, particularly by traffic police.
                             budget summary
    With the caveats noted above, USAID estimates the following amounts 
addressing issues relating to treatment, prevention and other related 
human rights matters.

                                                Fiscal Year 1999
                                                  [$ estimates]
----------------------------------------------------------------------------------------------------------------
                                                             Treatment          Prevention       Other Related
----------------------------------------------------------------------------------------------------------------
LAC Regional...........................................           $150,000  .................         $1,500,000
Haiti..................................................            600,000           $700,000            700,000
Guatemala..............................................             50,000  .................  .................
Peru...................................................             80,000            125,000  .................
Colombia...............................................                 na                 na                 na
Sierra Leone...........................................  .................  .................          1,300,000
Liberia................................................                 na  .................  .................
Uganda.................................................  .................  .................          1,500,000
Bosnia.................................................                 na  .................  .................
Russia.................................................                 na  .................  .................
Cambodia...............................................            200,000  .................  .................
----------------------------------------------------------------------------------------------------------------
na = not available.


    Senator Wellstone. And, Dr. Genefke, we will go forward 
with your testimony in a moment. You have not testified yet, I 
gather.
    Dr. Genefke. No, I have not.
    Senator Wellstone. And I would be interested in the 
response to what Ms. VanDusen has said. I am particularly 
interested in getting USAID to put more of a focus on the 
centers. I mean, we may have a semantics problem here, as to 
what it means to put more of a commitment to the international 
part of this.
    But I think we need to get some of these centers that have 
a proven record into some of these developing countries where 
the people who have been tortured live. And so I do not think 
it is enough just to do it here. I would like for us to focus 
on that as we go forward.
    Rod, have you voted?
    Senator Grams [presiding]. Yes.
    Senator Wellstone. Then we can move right along. But then, 
I--can you do the--I would much appreciate it if you would give 
me a 3-minute break. I would like to hear the testimony of Dr. 
Genefke.
    Senator Grams. Sure.
    Senator Wellstone. I will just run right up there and vote.
    The Senate does not do anything unless I tell it to.
    Senator Grams. They are waiting for Paul.
    Maybe I can ask a question while he is gone, because I 
know--that was our last vote for the day. But I know a lot of 
us have airplane flights that we have to catch at 5:30.
    So, Ms. VanDusen, I would like to ask you a quick question. 
We were talking some of the most recent examples of torture, of 
course, comes out of Kosovo, Pristina. In the cellar of the 
Pristina, Kosovo, police station, where NATO forces found 
wooden batons, heavy metal chain, black ski masks, bloodstains, 
a lot of other evidence that mass torture had been carried out 
by Serb forces before they fled.
    Has USAID or any other U.S. Government entity provided 
direct grants now to any treatment centers for torture victims 
in Pristina as part of the USAID package?
    Ms. VanDusen. We have provided resources to a variety of 
non-governmental organizations that are working specifically 
with victims of rape, victims of torture. These programs range 
from work with the Catholic Relief Services, with Doctors of 
the World.
    They have focused on treatment and counseling. They started 
out in the camps, because that is where the victims were. The 
victims have gone back to Kosovo. The programs are moving back 
to Kosovo.
    And we currently are reviewing proposals for a major $20 
million, 3-year program to continue services in the social 
rehabilitation area in Kosovo.
    Senator Grams. Where will those fundings come from? Will 
they come from the $500 million emergency aid package that has 
been put together?
    Ms. VanDusen. The second, the 3-year program will come from 
the emergency supplemental. The earlier ones that dealt with 
the refugees in the camp were drawn from our humanitarian 
assistance funds.
    And as I mentioned earlier, we draw from a number of 
accounts to fund these programs, from our health account, from 
our democracy account, from our humanitarian assistance 
account, from funds that are set aside for Eastern Europe in 
the case of the Kosovo women.
    Senator Grams. I am interested, too, in whether the 
enactment of the Torture Victims Relief Act has had any impact 
on priorities of USAID. In other words, what is USAID now doing 
that is different than maybe before this act became law?
    Ms. VanDusen. Well, I think it has provided greater focus 
in a number of respects. I think it has caused us to look at 
what we are doing in a variety of centers and how they fit 
together to both deal with the victims of torture and to 
establish the institutions that will prevent it from recurring.
    We also have initiated training of all of our democracy 
officers, so they are aware and are able to identify situations 
where torture will occur and are knowledgeable about the types 
of programs that are meaningful in terms of addressing it.
    So I think it is not that we were not dealing with this 
before the act, but the act has helped to focus on the full 
range of activities that are needed to deal with this very 
difficult problem.
    Senator Grams. And also, I would hope that all the 
statements could be entered into the record as if they were 
following each other. And then the questions be put in the same 
kind of order, so anybody reading back on this transcript will 
not hear opening statements, questions, opening statements. So 
I hope we can have that done where all the opening statements 
can be put in order into the record.
    Now that Senator Wellstone is back, Dr. Genefke, we would 
like to hear your comments.

STATEMENT OF DR. INGE GENEFKE, SECRETARY-GENERAL, INTERNATIONAL 
  REHABILITATION COUNCIL FOR VICTIMS OF TORTURE, COPENHAGEN, 
                            DENMARK

    Dr. Genefke. Yes, I would be very happy. But first, I want 
to thank you, Senator Grams, and to Senator Wellstone for the 
leadership you have had during all these years and for the very 
important work you have been doing and so that now there is 
this great Torture Victims Relief Act. I think on behalf of all 
the victims, we thank you very deeply.
    I will just give a short overview of the 25 years of 
professional, medical, psychological health professionals work 
we have been doing and then some visions for the future.
    The International Rehabilitation Council for Torture 
Victims is the health professional organization working for 
victims of torture and against the practice of torture. We work 
to heal shame and horror so unspeakable that we still, after 
many years, become deeply affected when confronted with it.
    Torture is horrible. What it does to people is truly a 
nightmare. It makes strong people weak. It induces grief and 
horror into their souls, altering them forever. Everybody can 
be broken.
    Luckily we have found that survivors of torture can be 
helped, and we believe that they should. Thus, the main focus 
of IRCT is to ensure that necessary treatment is offered to 
torture survivors all over.
    Historically, the work began 25 years ago. A group of 
medical doctors was founded under the auspices of Amnesty 
International in Denmark. As physicians, we began to document 
torture and to diagnose torture victims. We soon learned that 
there was a pattern in how victims reacted and kept reacting 
years after the torture had taken place.
    We felt competent in treating the bodily wounds, but we 
soon realized that the victims were often even more devastated 
psychologically. Torture is extreme trauma, physically and 
psychologically. And we realized what the torturers had known 
all the time. Torture is a psychological weapon, a very 
effective one.
    The same story was true over and over again by the victims 
we examined. How the fear was even bigger than the physical 
pain. How they kept having flashbacks, unable to live normal 
lives.
    Treatment should have a holistic approach, where you take 
the psychological, somatic, social, legal, spiritual, familial 
and cultural aspects into consideration, as all these areas are 
affected by torture.
    Early in our work, we discovered that the victims had often 
been strong and courageous persons. Torturers target 
leadership, seeking to silence the leadership of political 
opposition. We met ethnic minority leaders, student leaders, 
politicians and journalists, who had spoken out on human rights 
conditions in their country, people who had fought for freedom 
of speech.
    And now, after the torture, they could barely look us in 
the eyes, so shamed by what had happened to them. Even if they 
rationally knew that they were not at fault, they could not get 
away from the horrible feeling of shame and humiliation.
    With torture, we face the most devastating attack on any 
sort of freedom. This is why we see our work to rehabilitate 
torture survivors not just as an important support to restore 
the lives of these people. We also see it as an indispensable 
way of ensuring true democracy.
    Nelson Mandela is a torture survivor. Despite the cruel and 
prolonged detention Mandela suffered, he was able to overcome 
this suffering and promote reconciliation in South Africa. In 
popular terms, one can speak of the Nelson Mandela effect. He 
symbolizes the difference in establishing decent, uncorrupted 
democracies.
    I am convinced that a much more comprehensive 
rehabilitation effort can boost such a Nelson Mandela effect in 
many more countries. By providing rehabilitation services, a 
country is less likely to be afflicted by revenge and more 
likely to provide an environment where uncorrupted people like 
Mandela can be leaders in transitional societies.
    Rehabilitation can provide infant democracies with leaders, 
the leaders they need so desperately, uncorrupted leaders, who 
know their country and have suffered with their people.
    One of the strongest assets of IRCT is that we are an 
organization based on a strong network of treatment and 
rehabilitation centers across the world. IRCT cooperates with 
almost 200 treatment programs, professional programs, and 
centers globally and has conducted training and awareness 
activities all over the world.
    IRCT has a unique expertise in developing and supporting 
new centers and programs. The overall strategy for funding of 
rehabilitation centers and programs is to use the expertise of 
rehabilitation centers in OECD countries, to support centers in 
less developed countries. This is to take place in a 
partnership with the bilateral development agencies in the 
respective OECD countries.
    Danish NGO's working with rehabilitation are currently 
administrating rehabilitation programs with funding from the 
Danish International Development Assistance. We are hoping to 
witness such a construction develop in other countries, too, 
also in the United States.
    A recent grant of $2.5 million from the European Union to 
the IRCT has encouraged us to pursue this strategy. The 
donation from EU will make it possible to expand rehabilitation 
work in less developed countries. The aim of this grant is to 
strengthen the regional professional capacity for 
rehabilitation of torture victims and to initiate 15 new 
rehabilitation projects for torture victims.
    Still the EU grant cannot provide a long-term financial 
support to many of these centers. In this respect, the Torture 
Victims Relief Act can play a crucial role. It can enable 
centers in the U.S., like the Center for Victims of Torture, to 
engage in developing rehabilitation centers in less developed 
countries through a partnership with USAID.
    As a matter of fact, IRCT hopes and expects that USAID, 
together with the Center for Victims of Torture in Minneapolis, 
which is the oldest and most experienced center in the U.S., 
will join this effort in supporting rehabilitation 
internationally.
    With the Torture Victims Relief Act, this is all possible. 
Indeed, I am greatly pleased that it now seems that the United 
States will also play a major role in financing and developing 
treatment facilities. I wish to thank you, Senator Grams, and 
you, Paul Wellstone, as well as Tom Lantos and Christopher 
Smith for the genuine commitment and remarkable work you have 
shown in working for the Torture Victims Relief Act.
    And also, I want to thank Douglas Johnson and John Salzburg 
from the Center for Victims of Torture in Minneapolis for the 
tremendous job they have been doing and for their dedication to 
the cause.
    The Torture Victims Relief Act, signed into law by 
President Clinton, authorized nearly $31 million to assist 
victims of torture in the United States and abroad. As 
secretary-general of the network representing thousands of 
extremely courageous health professionals dedicated to the work 
of treating torture victims, I wish to thank the United States 
for this very important step. On behalf of the victims, I am 
grateful. Their needs can now be given well-deserved priority.
    What is required now is the timely appropriation by 
Congress of this act, as well as a commitment to renew this act 
this year. As the only surviving super power in the world, the 
United States has the main responsibility for supporting the 
humanitarian work and treatment of torture survivors.
    The improvement in the life quality of the survivors is a 
goal in itself. Treating torture survivors also builds the 
foundation for establishing true uncorrupted democracies in the 
world. These are two noble objectives that the United States 
not only should but must fully support.
    Torture is the strongest obstacle to democracy in the 
world. It is a big step forward that the United States as the 
strongest democracy in the world today has taken action against 
the strongest obstacle to democracy, torture.
    It is my sincere hope that other countries will follow the 
lead you take. If countries are not part of the solution, they 
are definitely part of the problem.
    Thank you.
    [The prepared statement of Dr. Genefke is on page 36.]
    Senator Grams. Thank you, Dr. Genefke.
    Ms. Cooper.
    And again, your entire statements will be entered into the 
record.

 STATEMENT OF ANGELIQUE COOPER, TORTURE SURVIVOR FROM LIBERIA, 
                        MINNEAPOLIS, MN

    Ms. Cooper. My name is Angelique Cooper. I am a West 
African woman and a survivor of the 7-year civil war in 
Liberia.
    My life before 1990 was what one would consider a normal, 
day-to-day life. I was brought up in a Christian home, which 
instilled discipline and morals. I went to school and then to 
the university with the goal of becoming a lawyer. 
Unfortunately, these dreams were shattered in 1990, when the 
civil war started in my country.
    My life changed overnight from what we would call normal to 
a world of mental torture. I watched family members being 
killed because of their personal beliefs. Innocent people were 
beaten and killed because they did not belong to a certain 
ethnic group or because they did not support the so-called 
revolution that was going on.
    I was tortured mentally and physically because of my 
personal beliefs, because I believe that this revolution had no 
meaning, and because of my involvement in an organization I 
started, the Liberian Youth Anti-Drug Campaign.
    Liberian children between the ages of 10 and 18 were 
deprived of a chance to grow up as any normal child should. 
They were turned into animals by the warlords, who gave these 
children drugs and guns and made them believe that the guns 
were an easy way to survive. Women and young girls were 
harassed and taken away from their families. Some parents were 
made to watch their daughters being raped. After such 
incidents, most of these young women were affected mentally and 
physically by the trauma. They lost hope of having a normal 
life. Some committed suicide because the mental torture was too 
much to handle.
    I look at myself as being extremely lucky. I was able to 
escape Liberia and came to the U.S. But I still had sleepless 
nights when I cried and had nightmares about what I 
experienced. I wondered how I could start over. In the process 
of applying for political asylum, my attorney referred me to 
the Center for Victims of Torture because he had heard what I 
had experienced and thought that the center would be the best 
place for me.
    I was never really able to talk about the war until I 
started my treatment at the center. I attend weekly counseling 
that has helped me regain confidence in myself and a hope for a 
better future. I was given medication to help me sleep, which 
also has done wonders for me. I now work full time as a travel 
agent and plan to start work on a business degree in the fall.
    I hope my story has helped you understand a little bit of 
what Liberians have been through and are still going through. 
There is no safety in Liberia. The warlord who started the war 
now runs the country. There are a lot of Liberians with 
temporary protected status in the U.S. who deserve the same 
opportunity I have had for a safe refuge in this country and 
treatment.
    Thank you.
    Senator Grams. Ms. Cooper, thank you very much.
    Senator Wellstone. Thank you very much.
    [The prepared statement of Ms. Cooper is on page 39.]
    Senator Grams. Mr. Johnson, I know you can comment on that. 
I was just going to say what a great job you do at the center.
    And I think the important work the center has done and is 
doing is kind of representative of the people who have visited 
there, all the way from former Secretary of State Mr. 
Christopher to Bill Richardson, Richard Holbrooke, nominee for 
U.N. Secretary--or Ambassador for the United States. So there 
are a lot of people who have made stops to look at what is just 
a small home in Minneapolis, but which does such great work.
    So now we would like to hear from you.

STATEMENT OF DOUGLAS A. JOHNSON, EXECUTIVE DIRECTOR, CENTER FOR 
              VICTIMS OF TORTURE, MINNEAPOLIS, MN

    Mr. Johnson. I would also like to thank the two of you for 
bringing Secretary General Kofi Annan to visit the Center for 
Victims of Torture as well. That was a very important 
opportunity, I think, to bring a message of hope. I would like 
to ask that my statement be included in the record and to 
divert myself from it somewhat, both in the interest of time 
and to move things forward.
    One thing we have learned over the last 14 years is that 
torture is an extremely powerful weapon that creates fear in 
communities. Knowing that intellectually, I was still very 
surprised at one point when we had a focus group of wealthy 
people in Minnesota. We were asking the question: Why do some 
people donate and some people do not? Why is it so hard to 
raise money for client care and for the work that we were 
doing?
    And as I sat on one side of one of these special windows, 
not able to interfere with this conversation, within 2 minutes 
this group of prominent Minnesotans focused on the problem of 
fear, that even they, living very safely in our community, 
found the word torture so filled with fear that it was much 
easier to turn the page, to move along, to pretend, really, 
that this is not occurring than to act.
    Two points on that. First, I think it has been remarkable 
that we have had such incredible support from the political 
leadership of Minnesota, not the least of which are our two 
Senators, who have faced their own fears on this issue and are 
willing to speak out and take political risks on behalf of 
torture victims in our communities.
    But second, I want to underscore that the fearsomeness of 
torture operates even more powerfully in places where torture 
occurs. There is a phenomenon that some psychologists call the 
art of knowing what not to know about, where communities deny 
that torture exists, because it is too fearsome to admit, and 
because to admit it is often to call oneself to moral action. 
And that, of course, is to put one's self in danger.
    Torture is, we say, the most powerful weapon against 
democracy, because it targets leadership to destroy leadership 
for the long term. It also creates a culture of fear and apathy 
in the communities that have experienced it. We believe that it 
is very important to underscore that part of the difficulty in 
the transition to building democratic cultures in post-
repressive regimes is not just that the police have not been 
trained, and not just that there are not all the institutional 
frameworks in place, but that there is a legacy of fear that 
has been the intentional strategy of repressive regimes. We 
also have to pay attention to this legacy in order to build 
democratic societies.
    We are extremely grateful for the leadership of the Torture 
Victims Relief Act. We are also grateful that the State 
Department, in particular, has moved forward with the very 
important support of the United Nations Voluntary Fund for 
Victims of Torture. Part of that support is, of course, the 
donation. But equally important is the leadership that it 
entails. It enables us to talk to other governments about not 
only the importance of the fund, but the importance of renewed 
public commitments against the work of torture.
    We are also very grateful that the Office of Refugee 
Settlement, although no funds were distributed in fiscal year 
1999, as called for by the bill, has nevertheless requested the 
funds for fiscal year 2000. And ORR appears to be very willing 
to move forward with us.
    But we were disappointed that USAID did not request the 
funds for fiscal year 2000. The funds may still be taken from 
other funds and there is very good work that is being done with 
groups on the issue of prevention. It is nevertheless 
disappointing because not requesting the funds directly for the 
Torture Victims Relief Act misses the opportunity for the 
United States to clearly define itself on this issue in our 
foreign policy. USAID in particular misses the opportunity to 
avow publicly that it is part of the solution, valued by the 
American people, not only to work to prevent torture, but to 
value the individuals who have been targeted by torture by 
helping them to recover.
    Law, of course, has two important dimensions. One of those 
dimensions is the very concrete, practical, programmatic 
results that emerge when we pass legislation. And we want that; 
we want the funds. But law also has a very important symbolic 
and moral effect. And the later is, I think, particularly 
important right now. We need USAID, the Department of State, 
and all American institutions to declare that this is a 
priority for the American people, and that in turn through its 
visibility, welcomes torture victims as well as treatment 
programs to step forward, not to thread their way through a 
bureaucracy or thread their way through other programs, but 
rather reaches out to them, recognizing that torture is 
fearsome for people. Let us make it easy for people to step 
forward, knowing that they will get support, not create 
roadblocks that will keep them away from support.
    The second point I wanted to make on this is that over the 
history of the human rights movement the last 50 years, we have 
largely emphasized the leadership of the legal community. It 
has been very important leadership. It has established many 
breakthroughs. But it is still only one form of thinking and 
one group of tactics. Those institutional tactics have 
developed, but they are still highly limited.
    As an example, I work on the OSCE Advisory Panel on Victims 
of Torture. I am very pleased to say that the OSCE has created 
a new training manual for all their field staff on the issues 
of torture to help them focus on the question of torture 
wherever they are. I have been asked to review that manual. 
Because of the interaction with the treatment centers, this new 
manual does train people to ask a series of questions to 
torture victims about what happened to help document.
    But at the same time, it was written by lawyers. And so 
reading the manual, there is not a hint that a torture victim 
would have a great deal of fear as they come to the interview. 
There is not a discussion of how the OSCE field staff should 
conduct an interview in a way that is supportive and helpful to 
get the information they want, but also to create a bond of 
trust with the survivor. There is not a discussion that the 
human rights worker, the OSCE staff person himself or herself, 
will have tremendous reactions to their own fear as they hear 
these stories. These are all insights that have been developed 
within the community of learning centers and treatment programs 
abroad. I would argue that we need this broadening of the 
experience and the understanding of the effects of torture in 
order to broaden our tactical responses to it, and not solely 
focus, as so much has in the past, on institutional changes.
    Third, I think what was extremely important about the way 
you all constructed the Torture Victim Relief Act, by looking 
at domestic issues, international issues and bilateral issues, 
was not simply to create three different programs and three 
pots of money, but rather to see that this is a problem that 
fits of a whole, that the domestic treatment centers need the 
international treatment centers. We need to be able to have 
colleagues in Ethiopia that we can consult to understand our 
Ethiopian clients better. They need us to see more clients in 
order to produce more experts, so that we are helpful to them 
in training them in their circumstances. The administration, 
the State Department, USAID, ORR, need to come together to look 
at how these programs interrelate with each other.
    ORR, for example must cope with the problems that refugees 
have as they come here. If there are not treatment centers in 
Africa, then torture victims must come here for care. We need 
treatment centers in Africa so that many of those leaders can 
remain in their country and still get the resources and the 
care that they deserve. So this issue must be dealt with as an 
interdependent strategy with different tactics to pull it 
together to be more effective.
    We believe it is extremely important to see the treatment 
centers as learning centers that affect their communities, that 
accumulate knowledge, that push the envelope on what we know 
about torture and its impact, that accumulate sufficient 
intellectual knowledge and intellectual capital that local 
people can begin to experiment with new ways of approaching 
community care in their areas, and so that the rest of us can 
learn from their efforts. And of course, fundamentally, the 
process of creating the treatment centers is creating the 
opportunity to recover leadership that many of us thought was 
lost, but now we know from the experience in the treatment 
centers can be regained, can be put back to work once again.
    Thank you.
    [The prepared statement of Mr. Johnson is on page 40.]
    Senator Grams. I would mention the center, too. I always 
like to mention that Governor Rudy Perpich was pretty 
farsighted when he encouraged the center and helped support the 
opening.
    And then we talk about important visitors, I think people 
like Ms. Cooper and other residents are very important 
visitors, too. And as you said, leadership can be put back to 
work. And I think it is very important.
    I have had a chance to make a statement and ask a couple 
questions. So I will turn to Senator Wellstone.
    Senator Wellstone. I appreciate it. I think what I would 
like to do is--I am also going to have to leave town soon, but 
I want to----
    Senator Grams. Voluntarily?
    Senator Wellstone. Voluntarily today, yes.
    I think that, again, recognition of Ms. Cooper--thank you 
very much for your courage. It is people like you that inspire 
both of us as Senators. And I think the center in Minneapolis, 
Minnesota, is something that we are very proud of.
    I would like to thank all of you for being here. Dr. 
Genefke, you are a giant. And you never once say it, but it is 
true. Everybody knows that.
    I think I want to focus really on one--I guess it is more--
and please thank Secretary Koh and thank you for your testimony 
today, Mr. Freeman. I would really like to see--and I talked to 
Mr. Anderson when he came to my office. We had a discussion 
about this.
    And I really would like to see USAID have a--when we passed 
this legislation and the President signed it, he said that this 
would lead to expanded assistance to treatment centers around 
the world. And I would like to see USAID make that more of a 
priority. I really do believe that if there is any one thing we 
could do that would sort of add to the work and really would be 
excited, important.
    And I think, Ms. VanDusen, I appreciate all that USAID is 
doing, but I really am going to, I guess, in a loving way, I am 
going to really push hard for you all to think about how you 
can more directly provide assistance to some of these centers 
in some of these developing countries, where, again, these poor 
people, who have been tortured where they live, far better may 
be able to get treatment there.
    In a sense, it would be better. And if it does not happen 
there, then they come here. And there is only so much that we 
can do here.
    So I do not know whether you want to respond, but I guess I 
am not--I am persuaded by the good work you do, but I am not 
persuaded actually by your testimony in relation to what I 
think USAID ought to do specifically.
    Ms. VanDusen. If I could just make a couple of comments----
    Senator Wellstone. Sure.
    Ms. VanDusen [continuing]. Because a lot has been said. And 
I agree with virtually all of it. We do see the work on 
preventing and treating torture as integral to building 
democracies. It is one of the fundamental goals of USAID.
    And I also agree that if you can build the capacity in the 
country where the abuse is occurring, the capacity to prevent 
abuse from occurring, it is much more effective. And that is 
really the goal of what we are trying to do.
    No question, we can do more, and we are going to try to. 
And Dr. Genefke has been very helpful to us in coming up with 
specific suggestions in specific countries. I think you will 
see a lot more collaboration between USAID and specific 
centers, as well as with programs outside those centers that 
are dealing with similar issues.
    Just a final point that has to do with the United States 
demonstrating its leadership, we probably can do more to make 
visible what we are already doing. And I will certainly spend 
some time with my colleagues at the State Department looking 
for ways that we can highlight how important this is to the 
United States and what we are prepared to do.
    Senator Wellstone. Do you think we can see USAID supporting 
more foreign treatment centers?
    Ms. VanDusen. We already are, and I think with the help of 
the international Council, we will be able to expand our 
efforts.
    Senator Wellstone. I guess the only--I was going to ask 
you, Doug, about the role of the centers in advocating for 
human rights and democracy abroad. I think the way you spoke to 
it in your testimony--this is really the piece that I want to 
focus on is what we can do by way of supporting these centers 
in other countries, and particularly some of the developing 
countries.
    And I think Rod and I will work very closely together in 
this to make sure that we can get the job done. And we have, I 
think, from the time I first came to the Senate, every year, 
worked on this piece of legislation. And the last couple of 
years the two of us have worked together, and I think we are 
both very committed to making this happen.
    Since I have to leave, I just again would like to thank 
everybody. I would like to thank you for what you are doing, 
and I would especially like to--it is not polite to point; I 
should not have pointed. But thank you for your testimonies.
    Senator Grams. Thank you, Paul.
    Speaking of funding quickly, I would like to go to Mr. 
Freeman real quick because I have one question here about the 
funding.
    Do you know of cases in the State Department funds for 
democracy and human rights have been used for grants to 
overseas treatment centers for torture victims? I know there is 
always a lot of different areas of funding, but has the State 
Department been committed?
    Mr. Freeman. The State Department focus in terms of 
funding, is directed at the U.N. voluntary fund. That $3 
million contribution is significant and, as was underlined by 
Doug Johnson and also Dr. Genefke, it has a symbolic, as well 
as a substantive value. It demonstrates that we are 
unequivocally on the side of torture victims and are doing what 
we can to lead by example.
    That is the State Department role in this issue, as 
distinct from the USAID funding.
    Senator Grams. Dr. Genefke, the IRCT solicited comments and 
response to the recent USAID report to the House Foreign 
Operations Subcommittee on support for torture victims 
treatment centers and programs in foreign countries, as we 
talked about.
    The question I would like to ask first, does the IRCT 
believe the USAID report contains a number of activities 
outside the scope of support for the treatment and 
rehabilitation of torture victims?
    Dr. Genefke. Well, I think, like Doug has expressed, Dr. 
Johnson has expressed, we have been also disappointed 
concerning exactly this. We have been very concerned with the 
USAID support for what they call rehabilitation programs, 
because we have seen the--we have seen the analysis. And I 
think we had a positive meeting, and I think we have had some 
positive answers here. But we have been very concerned.
    And rehabilitation programs are something which should have 
high technical knowledge. There should be really knowledge and 
also rehabilitation knowledge, medical, psychological 
knowledge. And we have had that during so many years. We have 
built it up. It should not be given scattered like that. And 
that should be taking off really as a rehabilitation program.
    And I hope we can work out that it could be more like that 
in the future.
    Senator Grams. Has the International Council applied to 
USAID for grants for treatment centers abroad? And were any of 
those grants rejected?
    Dr. Genefke. In our network, yes, there have been centers 
in different countries who have applied directly and have not 
got the money. I was a little surprised hearing that the 
extremely well-functioned centers--that some has got money, 
because I heard it was not given to them. But Russians have 
applied. Romanians have applied and have not gotten this money.
    And I know also that our close-working consortium partner, 
IRCT, the center which operates in Minnesota, has applied 
several times. They have got one positive answer concerning 
Turkey. But other applications have been without response or 
with a negative response so far.
    But as was also mentioned by Ms. VanDusen, we have handed 
over this list of 36 program centers, where there are 19 
existing centers. We are working with nearly no money for 
consideration. And there are 17 new projects. And we are very 
happy to provide much more background material, anything. And 
it can be started, may I say, tomorrow to assist them.
    And may I also add that we are asking for a very modest 
amount of money. To run centers out in developing countries is 
not something extremely expensive. It is about $150,000 to 
$250,000 a year. So what we have handed over here 2 days ago to 
USAID is a demand for between $7.5 million up to $9 million. 
And we hope very much that we will have a positive reply.
    Senator Grams. In our bill, we were hoping that the funding 
would lead by example. In other words, the U.S. showing the 
commitment and taking a leadership role and hoping that other 
countries would join in. Are there other developing countries 
that have shown an interest, or do you have information on a 
number of other centers? But what are some of the most 
supportive developing countries?
    Dr. Genefke. Well, maybe I should say that amongst 
developing countries, there are not very many who can 
themselves provide money. I mean, Nepal has given some money to 
the Voluntary Fund for Victims of Torture. But I may mention 
that my own government in Denmark has given--I have had really 
high priority, having consistently providing this kind of 
support, have given it high priority. They are now for this 
year, they are giving $3 million to rehabilitation efforts in 
Denmark.
    They are giving $2 million out to developing countries to 
different projects through the NGO's in Denmark, just as we 
want USAID to supply the money through the very professional 
working consortium party we have in CVT in Minneapolis, because 
then you have the technical skills. I think that is very 
important, the technical skills, the knowledge. We know how to 
do it. We are working together. We have the training programs. 
We have all of this ready.
    And that is with $2 million from the Danish Government. And 
they give our organization $1 million they give for the 
voluntary fund. So $3 million in the total.
    But I must say I am going regularly to the government, 
pushing them to give more money because this is still not 
enough. But I am pushing them. And I am always received very 
positive. So it would be--I think that that will also be giving 
more money next year.
    Senator Grams. Mr. Johnson, you know, a lot of your 
clients, I know, come from a lot of countries where torture is 
still being practiced. Are there torture treatment centers in 
many of those countries, or are they being established?
    Mr. Johnson. You know that IRCT was the first center, and 
the Center for Victims of Torture in Minneapolis was the third 
in the world. We think there are now over 250 centers around 
the world. But this is an idea whose time has come. It was a 
breakthrough in thinking that we could actually do something. 
What is particularly encouraging is the number of new treatment 
programs that are starting in countries where repression has 
recently occurred or where torture is still active.
    With the help of USAID, and really at the request of USAID, 
we went to Turkey to work with our colleague organizations 
there. And I think this was a very interesting experience, 
because it again shows what the treatment centers can do. They 
do an incredible job of documenting and publicizing that 
torture occurs, which helps, of course, maintain pressure on 
the government generally, in addition to helping specific 
individuals recover.
    But what has been particularly interesting in the Turkish 
example is the way our colleagues there have organized the 
medical community and stimulated the Turkish Medical 
Association itself to be an extremely active human rights 
organization. In other words, they built a constituency, a new 
constituency for human rights, and a very prestigious one, I 
might add, that brings new political weight in the struggle 
against torture in Turkey.
    Out of that, we, along with the medical association, also 
spent quite a bit of time, again with USAID support, training 
the forensic doctors of Turkey, the government officials who 
have the responsibility to testify that prisoners have not been 
tortured.
    I might note that one of the requests we made of Secretary 
Koh on his current trip to Turkey is to visit one of those 
forensic doctors, who, after going through both the technical 
and ethical training programs on identifying torture, began the 
very forthright way of making medical reports, stating that a 
given person was tortured. This doctor is now being prosecuted 
by the Turkish Government for allegedly supporting terrorist 
organizations with false reports, essentially because they did 
not like the results of his medical exams.
    So we have an ongoing role with colleagues we train who are 
in those kinds of circumstances, as does IRCT, in that when we 
also need to protect them so that they can do the work that 
they set out to do.
    And I am pleased to say--going back to the question you 
asked Deputy Secretary Freeman about places where the embassies 
have been very supportive--that this is a place where there has 
been a very good interrelationship of support from USAID, 
technical assistance from a treatment center, and protection 
from the embassy, that is really making a significant 
difference in a country where torture is, unfortunately, very 
active.
    Dr. Genefke. May I just add a few remarks? Because I should 
not only mention Denmark. I mean, we have also been in contact 
with New Zealand, supporting through consortium parties, also 
have been assisting in Cambodia; Sweden, also through an NGO in 
their country, assisting consortium partner for us and for CVT, 
assisting in Zambia.
    Canada, I think, are very interested in helping us through 
their NGO's. We are working together helping in Nigeria. And 
Greece, I could say are also--they are already helping. So the 
Greek center for victims of torture in West Bank and so on. But 
it is not the amount of money which U.S.--we are hoping for 
having when they are appropriated for the Torture Victims 
Relief Act.
    So you will have the lead, and that is what we want to take 
with us when we go around to governments, when we go around to 
the governments in countries. And then we can say ``Look 
here.'' So that is very, very important. And of course we want 
to have their money, as I said, through the CVT.
    Senator Grams. We have talked about a lot of funding 
through USAID. But one question I had maybe for you, Doug, 
would be, why do you believe it is important for USAID to give 
grants toward the treatment centers instead of just giving to 
NGO's, who a lot of those organization have experience dealing 
with victims who have been traumatized? Why is it important 
then to also include USAID in the picture?
    Mr. Johnson. Why is it important to include USAID or to 
focus on the treatment centers? Why do we think USAID should 
focus on the treatment centers?
    Senator Grams. Well, why they should--I mean, have the 
NGO's done a good job? Was that a good way to support the 
treatment centers, or why is it a good idea also to bring USAID 
into it as well?
    Mr. Johnson. Well, we have been involved in training some 
of the NGO's who have traditionally been involved in refugee 
situations. And it has really been a new idea for them that 
they should include psychosocial work in this area, and in 
particular work on trauma. So, first of all, I am a bit 
concerned how deep the knowledge is in this area and, in 
particular, whether or not it is sufficiently detailed and 
technical to meet the needs of victims of torture. All 
organizations do what they know how to do. And it is important 
not to confuse what we know how to do with what is appropriate 
to the situation. I am not arguing that we are necessarily 
better, but that the treatment centers add a new dimension and 
expand the capabilities and tactics that can be brought to bear 
on the situation. That is why it is very important.
    I think that the treatment centers push the envelope by 
working with the most difficult cases. Based on our 
understanding of how people respond to trauma, we can help in 
the most difficult cases. The most difficult cases are people 
who are targeted for torture. It is incumbent on us to 
understand that governments establish often elaborate 
infrastructures in order to eliminate those individuals. We are 
arguing that we need to also create the infrastructure to help 
those individuals recover.
    When there is a learning center in Africa that is truly 
pushing the envelope, they can create trained people who can 
help bigger NGO's intervene in the situation. But right now, 
when those NGO's must request training from us, we literally 
have to steal time away from our own clients in order to lend 
our expertise to them. We need more colleagues in the field who 
are doing this work in the same depth that we are, so that we 
can cover more territory in the future.
    Senator Grams. Ms. VanDusen, how can USAID be more 
supportive of more treatment centers in the future?
    Ms. VanDusen. Well, I think there are a number of things 
that we can do and will be doing. Certainly making those that 
currently are established known to our missions. We have a very 
decentralized structure. And we are basically now letting our 
field offices know about these organizations and encouraging 
them to learn more about them, to see how they can contribute 
to the programs. So one is from Washington encouraging our 
field programs to get involved.
    Another I think is basically we will continue to encourage 
the Minnesota center to get involved in our central programs. 
And we have met with Mr. Johnson and told him about some of the 
competitions that are coming up, where we think the center can 
really make a contribution. And we will continue to do that.
    USAID, as you know, makes its awards through a competitive 
process. But we certainly can encourage organizations like the 
center in Minnesota to respond, and we will continue to do 
that.
    Senator Grams. I think what we would all like to see is all 
of you be able to work yourselves out of a job.
    Ms. VanDusen. Exactly.
    Senator Grams. Ms. Genefke, do you think that a lot of the 
work and efforts that we have done in showing some leadership 
that it has had an effect on reduction in the amount of torture 
going on, or is it a battle that is a big fight ahead?
    Dr. Genefke. No. I think it is really very positive. And I 
think it is extremely helpful. And I think the torture 
government, they can see some sort of signs when the struggle 
for democracy has taken this very important step. And I hope 
for more steps forward, and I am sure that will come. But I am 
really sure that it has a preventive effect.
    May I also add that in many of the centers there are around 
in the world, they are doing rehabilitation, of course because 
we have treatment, but after a while, after some years, in some 
of the places they have been able to take preventive measures 
in a very good way. Because before making really prevention, 
you have to know what is really out there to prevent and study 
the thing. And they have done it. So they can make this 
preventive measures. And some of them are doing it in a very 
good way.
    Maybe I should add that also it is a sign for a fragile 
democracy that they permit some of the countries, where there 
are torture, that they permit--that there are centers, that 
there are even small centers. That is the first fragile sign 
that it is going in a good direction.
    And I know, for instance, in EU who is supporting us, we 
have been working for having also a line, a rehabilitation line 
also for rehabilitation.
    And they are looking most positive, and the countries would 
permit this work to be done. And I think that has also added to 
the prevention.
    Senator Grams. For countries that have permitted it to be 
done, are there countries that reject?
    Dr. Genefke. Yes. Yes, there are. But I do not think I can 
mention them here, by prudency. I do not think it will be 
dangerous if I say it, because we have contacts. In fact, ICRT 
has contacts all over the world, except in 16 countries. So you 
imagine, some of them are dangers, and some of them--I mean, it 
is dangerous work. It is extremely courageous colleagues we 
have here. Some of them are arrested, also.
    So of course if there are assistance from your country, it 
will mean enormously. And I may say, I cannot mention the 
countries here now, but in old times I could mention that it 
was dangerous for our colleagues in there, that we were there 
and under the dictatorship. It was very difficult in the 
Philippines where I was also under the dictatorship and so on.
    And we were secretly training people there. And that was 
with risk for their lives. And torture--and I have recently 
been in a country where the people were saying to me, ``If it 
was only me, but it is my family they will take.''
    So, you see, that is what we are up against. This is power 
instrument. All over the world there are these courageous 
people. We need to assist and help them. And really what we 
need is the finance, but also that you take the leadership and 
say this is not acceptable in our days.
    Senator Grams. Ms. Cooper, I think most of us sitting here 
cannot really understand what goes on in the minds of people 
who can commit these acts of torture, very gruesome acts. What 
do you think were the motivations of the people who tortured 
you?
    Ms. Cooper. To instill fear. They try to stop you from 
talking or stop you from doing things that are not in support 
of what they want. If you are not actually supporting them or 
speaking out for them, then you are not their friend. And so 
they try to do things that will keep you quiet. And they will 
personally attack you or make you watch your relatives being 
killed. For myself in particular, my uncle and his wife were 
shot in cold blood, just because they did not really believe in 
or support the revolution that was going on. My granddad, I 
watched him die and live as a vegetable for 1 week straight, 
because he had a heart attack. And his son was murdered for no 
reason, just because of his beliefs. They do whatever it takes 
to keep you quiet. They do whatever it takes to make you 
afraid.
    Senator Grams. Now were you held captive, charged with any 
crime, or are people tortured and then really kind of sent back 
into the community as an example of what they want you to do?
    Ms. Cooper. In my situation, we had fears of uprisings. 
During the third one, I was organizing an NGO, because the 
situation in my country, was that a lot of kids, babies between 
the ages of 10 and 18, were combatants. They were sent to the 
front lines. A 10-year-old would not--normally will not be able 
to go out on a battleground. But they gave them drugs, anything 
they felt would make them brave to go out there. So I decided, 
with some friends at the university, to organize a NGO called 
the Liberian Youth Anti-Drug Campaign to create awareness among 
the little children to understand that you are taking these 
drugs, but this is what happens to you.
    And there were certain individuals who did not like my 
organization, did not think it was wise. There were people who 
thought that a child stealer, if I may say, happened to be of a 
group called the Americo Liberian, a group that I am somehow 
related to because of my ancestors. And it was like, ``Why are 
you not supporting someone that you are supposed to be a part 
of, you are supposed to be ethnically connected to?''
    But I could not possibly support someone who thinks he 
comes and liberates me from a dictatorship government but who 
is committing all the things that are even worse than what the 
person is fighting ever did. My family was affected. My whole 
future just changed in a matter of seconds. And it was just 
unthinkable for me as an individual to support such a person. 
If you came to liberate me, why were you affecting me? I mean, 
I was being affected, and you are supposed to be--I just could 
not work with them or support this person. And that made people 
who were loyal to him really upset.
    This individual, they are attacking personally, he is like 
a personal aid to this child stealer. He would stand in front 
of bullets to risk his life for child stealer's life. And that 
irritated him. And he had asked me before why I was not in 
support of the child stealer. And at that time, we had the West 
African peacekeeping forces around--ECOMOG. And I was a bit 
sarcastic to him, when he confronted me in public. But they 
were all involved in their elections of becoming president and 
their own personal things.
    They really sort of forgot about me for a while, until the 
last incident took place on April 6, 1996. There are times 
before a child stealer goes to a certain area that he sends 
people to do mopping-up situations, to make sure that people 
who do not support him are not there. And in the process of 
this mopping up situation, this individual went to a house that 
I was sort of seeking refuge at. And he said, ``Oh, so you are 
still here. I am coming back.'' But they were fighting at a 
front line. And we all talked that they were really 
concentrating on their front line.
    And it was just this person's regular bluff until he came 
back to try to prove his point. And he promised to come back to 
take me away to teach me even more of a lesson.
    And it was when he left that I just walked. I just got up 
that morning with just my passport and just walked to the 
free--strangely, ECOMOG was in our neighborhood. And they were 
manning checkpoints, the peacekeeping forces. So we felt safe 
when we went to bed at night. But when we woke up in the 
morning, ECOMOG was nowhere to be found. They had all retreated 
to their base. And we had guerilla fighters all around us. The 
checkpoints were all set up again, and we had to go through the 
same checkpoints. We had to go through the same questions of 
``What ethnic group do you belong to? Why do you not support 
this group,'' and all of that.
    After what had happened to me, I just felt I had to get 
out. I did not care whether I had clothes. I just had to get 
out. And so I walked for 50 kilometers to where ECOMOG had 
retreated to.
    I stayed in a container overnight which they usually used 
for shipping vehicles and stuff like that. I slept in there and 
got in the ship the next morning and went to a neighboring 
country and then on to the refugee camp, where I stayed for a 
couple months and then went on another ship and came over here.
    Senator Grams. What difference has--this treatment at the 
Center for Victims of Torture, what difference has that 
treatment made in your life?
    Ms. Cooper. It has made a lot of difference because I never 
really could talk about what had happened. My attorney has 
said, ``Why did you not talk about it?'' And I told him that I 
figured if I just put it behind me, tried to put it behind me, 
just get on with things, it would be OK. I did not want to talk 
about it because it was--I did not want to relive it. It was 
better to just try to forget about what had happened and try to 
see if I could just go on.
    But my attorney said that it would help me a lot if I would 
talk to people about it. And then I started working with a Dr. 
Garcia at the center. And we talked about my life before the 
war, my life during the war, and what my plans are and what it 
is like to sleep at night. For years I do not really think I 
slept 5 hours straight at night. I would get up in the middle 
of the night and just--with cold sweats.
    I would have dreams of watching war tanks roll down the 
street. And I would jump up from my sleep. I had to take a 
medication called Paxil. And that has helped me sleep a lot. I 
never really slept a full night through until I took that 
medication. And I have to take that every night in order to 
sleep and until I feel comfortable with readjusting into a 
normal way of life.
    The center has really been a lot of help to me. They have 
helped me. I do not know how to say. They have really, really 
helped me on that. I can say that. I still go to counseling 
every Thursday.
    Senator Grams. Are you working now?
    Ms. Cooper. Yes. I work with a travel agency. And they help 
me with my concentration. Because normally, to study was not a 
problem for me. But after what happened, I would study at 
night, and I would read a paragraph, and my mind would just 
wander away. And things that before would take me maybe just 10 
minutes to comprehend would take me 30 minutes to comprehend, 
because it was a problem. I always strayed away. I have to be 
on my medication to help me relax.
    Senator Grams. Dr. Genefke, did you want to add something?
    Dr. Genefke. Yes. I think I just would like to add also 
that I think we are all very moved by what you have been saying 
and courage of this young woman. What is needed also from the 
part of your country, I think, is--because this work could be 
expanded very much.
    All over the world there are these courageous people, who 
want to help and assist your country. To go into this if there 
is more protection--and what is needed is protection to these 
people.
    And I want also to underline that the rehabilitation 
centers, they are not doing political work. They are just doing 
their ethical duty as doctors and as nurses. That is the only 
thing they are doing. And they are in danger, life danger, 
danger of being tortured and so on by people. It is nothing 
political. We are just doing our duty as medical doctors.
    So the Torture Victims Relief Act and what you can do from 
USAID and what has been done from CVT, this is--this can 
change. It can make an enormous change. And it would be an 
enormous support for protection of these courageous people.
    Senator Grams. I want to thank you all for being here. I 
know we need to--in case somebody has a plane to catch or 
whatever. But I will leave the record open. I would like to 
leave it open until the end of next week in case other members 
of the committee who could not be here today would like to 
submit questions.
    I know Senator Boxer wanted to be here today and could not 
because of other commitments. But I am sure she will probably 
have a couple questions. And I want to answer Senator 
Wellstone's, as well as others.
    So we would like to leave the record open. If you have 
anything else you would like to add, please do so. And if we do 
submit questions to you in writing, if you would promptly 
answer them and return them to the committee, it would be very 
helpful.
    So again, I want to thank you all. Mr. Freeman, Ms. 
VanDusen, Dr. Genefke, Ms. Cooper, thank you very much. And, 
Doug, it is always great to see you. Thank you for all your 
good work as well. I appreciate it. Thanks.
    This hearing is adjourned.
    [Whereupon, at 3:36 p.m., the hearing was adjourned.]

            Prepared Statement of Inge Genefke, MD, DMSc hc

    Ladies and Gentlemen:
    The International Rehabilitation Council for Torture Victims is a 
health professional organisation working for victims of torture and 
against the practice of torture. We work to heal shame and horror so 
unspeakable, that we still, after many years, become deeply affected 
when confronted with it.
    Torture is horrible. What it does to people is truly a nightmare. 
It makes strong people weak. It induces grief and horror into their 
souls, altering them forever. Everybody can be broken. Luckily we have 
found that survivors of torture can be helped. And we believe that they 
should. Thus, the main focus of the International Rehabilitation 
Council for Torture Victims is to ensure that necessary treatment is 
offered to torture survivors.
    Historically, the work began twenty-five years ago. A group of 
medical doctors was founded under the auspices of Amnesty International 
in Denmark. As physicians, we began to document torture and to diagnose 
torture survivors.
    We soon learned that there was a pattern in how victims reacted and 
kept reacting years after the torture had taken place. We felt 
competent in treating the bodily wounds, but we soon realised that the 
victims were often even more devastated psychologically. Torture is 
extreme trauma: physically and psychologically.
    And we realised what the torturers had known all the time. Torture 
is a psychological weapon. A very effective one. The same story was 
told over and over again by the victims we examined. How the fear was 
even bigger than the physical pain. How they kept having flashbacks. 
Unable to live normal lives.
    Treatment should have a holistic approach, where you take the 
psychological, somatic, social, legal, spiritual, familial and cultural 
aspects into consideration as all these areas are affected by torture.
    Early in our work, we discovered that the victims had often been 
strong and courageous people. Torturers target leadership. Seeking to 
silence the leadership of political opposition.
    We met ethnic minority leaders, student leaders, politicians and 
journalists who had spoken out on human rights conditions in their 
country. People who had fought for freedom of speech. And now--after 
the torture--they could barely look us in the eye, so shamed by what 
had happened to them. Even if they rationally knew that they were not 
at fault, they couldn't get away from the horrible feeling of shame and 
humiliation.
    With torture we face the most devastating attack on any sort of 
freedom.
    This is why we see our work to rehabilitate torture survivors not 
just as important support to restore the lives of these people. We also 
see it as a necessary means to improve and restore the freedom 
necessary to build democracies.
    Nelson Mandela is a torture survivor. Despite the cruel and 
prolonged detention Mandela suffered, he was able to overcome that and 
promote reconciliation in South Africa.
    In popular terms one can speak of the Nelson Mandela effect. He 
symbolises the difference in establishing decent democracies.
    I am convinced that a much more comprehensive rehabilitation effort 
can boost such a Nelson Mandela effect in many more countries. By 
providing rehabilitation services, a country is less likely to be 
afflicted by revenge and more likely to provide an environment where 
uncorrupted people like Mandela can be leaders in transitional 
societies.
    Rehabilitation can provide infant democracies with the leaders they 
need. Uncorrupted leaders who know their country and have suffered with 
its people.
    One of the strongest assets of IRCT is that we are an organisation 
based on a strong network of treatment and rehabilitation centres 
across the world. IRCT co-operates with almost 200 treatment programmes 
and centres globally and has conducted training and awareness 
activities over the world.
    IRCT has unique expertise in developing and supporting the 
initiation of new centres and programmes. The overall strategy for 
funding of rehabilitation centres and programmes is to use the 
expertise of rehabilitation centres in OECD-countries to support 
centres in less developed countries in a partnerships with the 
bilateral development agencies in the respective OECD countries.
    Danish NGO's working with rehabilitation are currently 
administrating rehabilitation programmes in less developed countries 
with funding from the Danish International Development Assistance. We 
are hoping to witness such a construction develop in other countries 
too. Also in the United States.
    A recent grant of 2.5 million USD from the European Union to the 
IRCT has encouraged us to pursue this strategy. The donation from EU 
will make it possible to expand rehabilitation work in less developed 
countries. The aim of this grant is:

  <bullet> strengthen the regional professional capacity for 
        rehabilitation of torture victims.
  <bullet> initiation of 15 new rehabilitation projects for torture 
        victims.

    The IRCT structure behind the implementation of this programme is 
five regional programme officers working in the headquarters, and a 
number of rehabilitation experts working as regional or sub-regional 
co-ordinators in the different parts of the world.
    Still, the EU grant cannot provide a long-term financial support to 
many of these centres.
    In this respect, the Torture Victims Relief Act can play a crucial 
role. It can enable centres in the U.S. to engage in developing 
rehabilitation centres in less developed countries through a 
partnership with USAID. As matter of fact, IRCT hopes and expects that 
USAID together with the Center for Victims of Torture in Minneapolis, 
which is the eldest and most experienced centre in the U.S., will join 
this effort in supporting rehabilitation internationally.
    With the Torture Victims Relief Act this is all possible.
    Indeed, I am greatly pleased that it now seems that United States 
will also play a major role in financing and developing treatment 
facilities. I wish to thank Senators Rod Grams and Paul Wellstone, as 
well as Representatives Tom Lantos and Christopher Smith for the 
genuine commitment and remarkable work they have shown in working for 
the Torture Victims Relief Act. From the bottom of my heart I also wish 
to thank Douglas Johnson and John Salzburg from the Center for Victims 
of Torture for the tremendous job they too have done and for their 
dedication to the cause.
    The Torture Victims Relief Act, signed into law by President 
Clinton, authorised nearly 31 million USD to assist survivors of 
torture in the United States and abroad.
    As Secretary-General of a network representing thousands of 
courageous health professionals dedicated to the work of treating 
torture victims I wish to thank the United States for this very 
important step. On behalf of the victims I am grateful. Their needs can 
now be given well-deserved priority.
    What is needed now is the timely appropriation by Congress of this 
act. As well as the commitment to renew this act in due time.
    As the only surviving superpower in the world, the United States 
has the main responsibility for supporting the humanitarian work and 
treatment of torture survivors. The improvement in the life quality of 
the survivors is a goal in itself. Treating torture survivors also 
builds the foundation for establishing true democracies in the world. 
These are two noble objectives that the United States not only should 
but must support fully.
    Torture is the biggest obstacle to democracy in the world today. It 
is a big step forward that the United States as the strongest democracy 
in the world today has taken action.
    It is my sincere hope that other countries will follow the lead you 
take. If countries are not part of the solution, they are definitely 
part of the problem.
    Thank you.

    [Attachment]

            Implementation of the Torture Victims Relief Act

   comments by the international rehabilitation council for torture 
   victims on the report to the subcommittee on foreign operations, 
committee on appropriations, u.s. house of representatives, concerning 
             usaid programming to prevent and treat torture
    The IRCT has warmly welcomed the pioneering initiative of USA 
legislators to promote and adopt the first comprehensive legislation in 
the world providing direct assistance to the many victims of torture 
residing both inside and outside the USA.
    The IRCT reiterates its claim that existing multinational funds 
currently available to support direct service provision to victims of 
torture are far from covering the need for international funding of 
such services especially in developing countries and countries in 
Central and Eastern Europe. This in spite of the substantial and most 
welcome increase in the US contribution to the UN Voluntary Fund for 
Victims of Torture received this year.
    The IRCT has therefore increased its efforts to motivate National 
Development Assistance agencies to include direct support for centres 
and programmes for victims of torture among eligible candidates for 
financial support within the human rights and democracy programmes of 
these agencies.
    The IRCT has seen the TVRA as a break-through in this context 
coming at a time where for a number of reasons many centres and 
programmes are facing serious financial problems or even closure due to 
lack of funding.
    The IRCT has its basis in the need for and possibility of providing 
appropriate health care services to victims of torture and thereby 
assisting them in returning to their previous often important social 
and political roles in their communities.
    The IRCT does not underestimate the importance of prevention in the 
fight against torture but as in many other public health challenges--
and torture is a cancer on society--providing services to those already 
afflicted by the scourge cannot be neglected in a comprehensive 
approach to a health problem.
    The IRCT therefore submits its deeply felt conviction that 
provision of direct services to victims of torture is such an urgent 
need that the TVRA cannot be properly implemented with a broadening of 
its purpose to include other forms of human rights violations or other 
approaches to the fight against torture--however justified these other 
needs are in an overall context.
    The IRCT finds it justified to add that the accumulation of medical 
documentation of physical and mental consequences of torture which is a 
side benefit of systematic clinical work with victims of torture has 
proven the strongest indicia of past and current practice of torture. 
So any preventive action would need as control of its effectiveness the 
kind of credible data which can only be provided by centres and 
programmes providing direct services to victims of torture.
    The IRCT therefore strongly recommends that the resources which--
thanks to the TVRA may now be made available as bilateral assistance 
through USAID should as a first priority be reserved for direct service 
provision to primary and secondary victims of torture as defined in the 
UN Convention against Torture. As a second priority training programs 
aiming at enabling health professionals to better identify and provide 
appropriate care to victims of torture would also be justified.
    The IRCT finds that using such criteria and priorities only few of 
the otherwise excellent activities enumerated in the USAID report to 
the Subcommittee could be accepted as falling within the strict 
purposes set out in the TVRA, viz.:

          1. The part of the human rights program for South Africa went 
        into direct service provision for victims of torture.
          2. The part of the grant to the Minnesota based Centre for 
        Victims of Torture used to provide training and technical 
        assistance for Turkish doctors.
          3. The part of USAID funding of the Inter-American Institute 
        for Human Rights that supported a region-wide effort to train 
        medical personnel to recognise and to treat torture victims.
          4. The part of the funding of the International Organisation 
        for Migration which has been used for service provision to 
        victims of torture. (As far as we have been informed the IOM 
        while providing general health care services to refugee 
        populations has yet to engage in specific services for severely 
        traumatised victims of torture).
          5. The part of the funding of the Haiti Human Rights Fund 
        that has been used to provide assistance and treatment to 
        victims of torture.
          6. The support given in Cambodia to the training of primary 
        care physicians and medical students to recognise and treat 
        mental illness in the aftermath of the Khmer Rouge reign of 
        terror.
          7. The part of the programs supported in Bosnia that provided 
        trauma counselling and medical assistance to war victims 
        tortured by rape and other means as well as other victims of 
        torture.

    The IRCT is bound to conclude that the USD 1,680,000 listed as 
FY'99 estimates for treatment related activities almost exclusively 
addresses short term projects and does not provide support for the 
large number of institutionalised centres and programmes (more than 160 
such centres exists globally).
    The IRCT hope that the review of the current low level of USAID 
support for such services will lead to a change in policy and allow a 
determined effort to support a number of these centres from now on. 
This support should preferably be in the form of several year 
commitments that will allow the dedicated staff of these centres to 
concentrate on providing care to a most deserving population rather 
than spending too much time on writing applications and constantly 
worry over even the short term survival of their programmes.
    The IRCT is convinced that a determined lead by the USA in this 
respect will convince other national development assistance agencies to 
follow suit.

                                    Maria Piniou-Kalli, MD,
                                                    President, IRCT
                                            Erik Holst, MD,
                                           Deputy General Secretary

                                 ______
                                 

                 Prepared Statement of Angelique Cooper

    Senator Grams and Members of the Committee:
    My name is Angelique Cooper. I am a West African woman, and I am a 
survivor of the seven-year civil war in Liberia. My life before 1990 
was what one would consider a normal, day-to-day life. I was brought up 
in a Christian home, which instilled discipline and morals. I went to 
school, and then to the University with the goal of becoming a lawyer. 
Unfortunately those dreams were all shattered in 1990 when the civil 
war started in my country.
    My life changed overnight from what we would call normal to a world 
of mental torture. I watched family members being killed because of 
their personal beliefs. Innocent people were beaten and killed because 
they didn't belong to a certain ethnic group or because they did not 
support the so-called revolution that was going on. I was tortured 
mentally and physically because of my personal beliefs, because I 
believe that this revolution had no meaning, and because of my 
involvement in an organization I started, the Liberian Youth Anti-Drug 
Campaign.
    Liberian children between the ages of 10 to 18 were deprived of the 
chance to grow up as any normal child should. They were turned into 
animals by the warlords who gave these children drugs and guns and made 
them believe that the guns were an easy way to survival. Women and 
young girls were harassed and taken away from their families. Some 
parents were made to watch their daughters being raped. After such 
incidents, most of these young women were affected mentally and 
physically by these traumas. They lost hope of having a normal life. 
Some committed suicide because the mental torture was too much to 
handle.
    I look at myself as being extremely lucky. I was able to escape 
Liberia and come to the U.S., but I still had sleepless nights when I 
cried, and had nightmares of what I had experienced. I wondered how I 
could start all over. In the process of applying for political asylum, 
my attorney referred me to the Center for Victims of Torture because he 
heard what I had experienced and thought the Center would be the best 
place for me. I was never really able to talk about the war until I 
started my treatment at the Center. I attend weekly counseling that has 
helped me regain confidence in myself, and hope for the future. I was 
given medication to help me sleep, which has also done wonders for me. 
I now work full time as a travel agent and plan to start work on a 
business degree in the fall.
    I hope my story has helped you understand a little bit of what 
Liberians have been through, and are still going through. There is no 
safety in Liberia, the warlord who started the war now runs the 
country. There are a lot of Liberians with Temporary Protected Status 
in the U.S. who deserve the same opportunity I have had for a safe 
refuge in this country and treatment.

                                 ______
                                 

                Prepared Statement of Douglas A. Johnson

    Senator Grams and Members of the Committee:
    Thank you for the opportunity to address the issue of United States 
policy towards victims of torture.
    June 26, 1999 commemorated the second annual United Nations 
International Day in Support of Victims of Torture. As Secretary-
General Kofi Annan said last year on this occasion ``This is a day on 
which we pay our respects to those who have endured the unimaginable. 
This is an occasion for the world to speak up against the unspeakable. 
It is long overdue that a day be dedicated to remembering and 
supporting the many victims and survivors of torture around the 
world.'' He went on to pay tribute to the efforts of governments, 
organizations, and individuals to ``relieve the suffering and assist 
the recovery of torture victims around the world.''
    This hearing is timely because the Torture Victims Relief Act (PL 
105-320)--the first comprehensive U.S. program to address the needs and 
hopes for recovery of torture victims--hangs in the balance.
    We deeply appreciate your leadership, Senator Grams, that of 
Senator Wellstone and the other principal sponsors of TVRA, in winning 
the bill's enactment in October 1998. The Act recognizes that the 
effects of torture are long term both on the individual and the society 
in general, and that ``repressive governments often use torture as a 
weapon against democracy.'' It endorses the ethical and economic 
imperative that the many torture victims living in the United States 
``should be provided with the rehabilitation services which would 
enable them to become productive members of our communities.'' For 
fiscal year 1999 the Act authorized $5.0 million for the Department of 
Health and Human Services to support services for rehabilitation of 
victims of torture in the U.S., $5.0 million for USAID to support 
foreign treatment centers, and $3.0 million as a contribution to the 
United Nations Voluntary Fund for Victims of Torture. For fiscal year 
2000 the Act authorizes $7.5 million for the Department of Health and 
Human Services, $7.5 million for USAID to support foreign treatment 
centers, and $3 million to the UN Voluntary Fund for Victims of 
Torture.
    On October 30, 1998, the President signed the Torture Victims 
Relief Act into law and stated: ``This Act authorizes continued and 
expanded U.S. contributions to the treatment centers, both in the 
United States and around the world, for persons who suffer from the 
mental and physical anguish of having been tortured.'' And on December 
10th, the President committed in fiscal year 1999 $3 million to the 
United Nations Voluntary Fund for Victims of Torture. This amount was 
contributed to the UN several months ago in time for the annual board 
meeting; thanks to the American contribution, the Fund was able to 
distribute its largest support for treatment programs. Despite this 
fact, about one third of the requests still could not be fulfilled.
    But with this one exception, no other funding has been forthcoming. 
And without the funding, the Act remains only a set of unrealized 
principles. It is my hope that this hearing will serve to help 
reinvigorate the Congressional will to see that the appropriations for 
fiscal year 2000 will include this funding, and that the Administration 
will find emergency funds in 1999 to begin the investments Congress 
authorized and endorsed.
    We are pleased that the President followed through with requests to 
Congress for appropriations for fiscal year 2000 for two of the three 
categories of aid to victims of torture. President Clinton requested 
$7.5 million to assist victims of torture in the U.S. through the 
Office of Refuge Resettlement of the Department of Health and Human 
Services and he requested $3 million for the UN Fund. Now it is up to 
Congress to ensure that these funds are appropriated.
    We were very disappointed, however, that the administration did not 
request the $7.5 million authorized by TVRA for USAID to support 
treatment centers for victims of torture in the developing world and in 
the former Soviet block. This omission is not consistent with the 
President's pledge in his signing statement to support treatment 
centers around the world as well as domestically. TVRA calls for 
support of foreign treatment centers because many of the victims of 
torture are grass roots leaders who have been in the forefront of the 
struggle for human rights and democracy. Support for them is an 
effective way for the U.S. to support democratic movements throughout 
the world. Moreover, documentation by health professionals at foreign 
treatment centers provides credible evidence of torture. The Department 
of State, Amnesty International, and other NGO's use these reports, as 
shown by the excellent work of the physicians in Turkey. Documentation 
provides the basis for pressuring governments to end the practice of 
torture.
    Yet despite passage of the Torture Victims of Relief Act as well as 
repeated recommendations by the appropriations committees, USAID has 
been unresponsive to Congressional calls for financial support for 
foreign treatment programs for victims of torture. USAID has never 
explained why it apparently is uncomfortable helping people who have 
received the cruelest form of treatment. When asked by the 
appropriations committee to report on how it had implemented the 
committee's recommendation to support treatment programs, USAID 
responded as though it had followed the letter and spirit of the 
recommendation. In fact, most of the projects it cited as complying 
with the recommendation did not involve treatment programs for victims 
of torture. And the projects with some semblance of supporting victims 
of torture involved organizations that are not recognized 
internationally for competence in the field.
    We are grateful that in contrast to USAID the Department of State 
has responded energetically to Congressional calls to increase the U.S. 
contribution to the UN Voluntary Fund for Victims of Torture. The 1999 
$3 million contribution is an increase from only $100,000 six years 
ago. Even so, some European countries exceed us on a per capita basis, 
an especially humbling fact given that the European Union has its own 
(separate) grant program totaling about $6 million, in addition to 
bilateral support from their development agencies.
    The UN Voluntary Fund assists nearly 100 projects in more than 50 
countries. It provides significant support to U.S. centers whose 
clients are frequently not covered by any form of health insurance. We 
are encouraged that that the Department of State authorization bill 
provides for a $5 million yearly contribution.
    The Center for Victims of Torture is the U.S. member of a 
consortium of treatment centers from eight industrialized nations, 
working together to coordinate resources to create and support 
treatment centers in areas of repression or recent repression. We meet 
under the auspices of the International Rehabilitation Council for 
Torture Victims (IRCT), an association of treatment centers around the 
world. IRCT received a grant of about $2.5 million dollars from the 
European Union to help the start-up of new programs to aid torture 
survivors, with the objective of finding bilateral foreign aid agencies 
to provide longer term operating support until the programs can be 
self-sustaining. We met last month in Copenhagen to review the urgent 
needs of survivors where there are no treatment facilities and to 
determine which of us could provide technical assistance and funding.
    Representatives of the other nations lauded American action to pass 
the TVRA, and indicated they were using the legislation as a model for 
their own government actions. So we were somewhat chagrined to point 
out that there was actually no money available for the needs we were 
reviewing. Hence, the funding authorized in TVRA is critical. We are 
pleased that both and Senate and House committees on appropriations 
have recommended that USAID allocate $7.5 million for this purpose. We 
urge you to press USAID to comply with this recommendation.
    There are now over 200 treatment centers for victims of torture 
around the world with more than 100 in developing countries and the 
countries of eastern and central Europe. This results in an estimated 
worldwide need for funding of at least $33 million. The UN Voluntary 
Fund for Victims of Torture provides slightly more than $5 million, and 
the European Union about $6 million. This leaves a gap of about $22 
million. The EU grant to IRCT is being made with the purpose of 
obtaining more support from the industrialized countries with 
development aid programs. USAID will not be alone in this venture. We 
fervently hope that USAID will join with other countries in making this 
investment in recovering the leadership stolen by repression.
    So far, my comments have been largely limited to the international 
scene. We believe that the U.S. should not only provide support to 
torture survivors abroad but certainly to those in our own country as 
well. Many of them have also been grass roots leaders in their own 
country. Now, they are becoming adjusted to a new land. But, in 
addition to all the cultural and linguistic adjustments that have to be 
made as an immigrant, they must also overcome the effects of torture. 
Clearly they deserve our help and not only for altruistic reasons. With 
treatment they can recover their lives and become productive members of 
our communities.
    The Office of Refugee Resettlement has done some groundbreaking 
work in providing outreach to resettlement workers and others who come 
in contact with torture survivors. Its training programs have helped 
people learn how to relate to torture survivors and how to make 
referrals for care. Trainers for these purposes need to be health 
professionals with clinical experience in the care of torture victims. 
There are only a handful of centers in the U.S. with experienced 
clinicians. The Center for Victims of Torture and the other leading 
treatment programs have tried to fill ORR's call for trainers, as we've 
also responded to the call of the Minnesota legislature to train the 
health care systems in our state in order to mainstream services. But 
we have reached our limit, still unable to meet the many requests we 
have for training.
    Mr. Chairman, there are not yet formal training programs that can 
produce experts in the field outside the current treatment centers. 
When we try and meet training demands, we must pull our experts away 
from client care. We've fine-tuned our system to strike a balance 
between our responsibilities to our clients and our obligations to help 
others become involved. And we've realized that the only way we can 
meet these demands is by producing more experts ourselves: finding good 
clinicians and putting them to work with torture survivors under the 
guidance of our staff. This means that to create the long-term 
resources to make care widely available, we must first invest in the 
treatment centers capable of being learning centers for the nation.
    During the war in Bosnia, when we were first asked by government 
agencies how many torture survivors we could take for them, we argued 
that the U.S. should create the capability to respond to emergency 
needs as part of our national strategic repertoire. Once again, the 
same calls have come, asking about the support available to highly 
traumatized Kosovars, survivors of another series of human rights 
atrocities. Our capacity is still highly limited.
    We need to expand the capabilities of the current treatment 
centers, as emergency sites in times of catastrophe, and as learning 
centers, producing the experts needed for disseminating knowledge and 
stimulating commitments. Assuming Congress does appropriate funds under 
TVRA to ORR, we hope it follows this approach. We need investment in 
client care as the most effective way to expand treatment services 
available to torture survivors.
    It should be noted that the investments in both domestic and 
international treatment programs are not only parallel initiatives, but 
will be most effective when conceived and conducted in an 
interdependent fashion. We can not produce enough trainers and 
technical expertise to assist our international colleagues without 
increasing our own treatment capacity. But unless we also create and 
support the creation of learning and service centers in countries of 
repression, the victims must seek refuge in the U.S., Europe, and other 
places where adequate care is available.
    Finally, it should be mentioned that the Torture Victims Relief Act 
only authorizes support for treatment programs in fiscal years 1999 and 
2000. Congress needs to authorize for fiscal year 2001 and succeeding 
years. Given that the administration begins preparation of the fiscal 
year 2001 budget shortly, this needs to be done as soon as possible. We 
are also very pleased, Mr. Chairman, that you and Senator Wellstone are 
introducing legislation to authorize increased appropriations for 
future years under the Torture Victims Relief Act. Given the huge gap 
between the domestic and worldwide need for treatment services and 
available resources, significant increases should be made in the 
authorization dollar amounts.
    While the focus of this testimony and the Torture Victims Relief 
Act is on care for the victims, United States must do everything 
possible to prevent the practice of torture around the world. It is 
appalling that the U.S. is several years late in filing the required 
initial report as a state party to the United Nations Convention 
Against Torture, and Other Cruel, Inhuman or Degrading Treatment or 
Punishment. How effective can we be in impressing upon other 
governments to comply with the convention if we do not fulfill our own 
obligations?
    There are other key areas where American leadership would be 
welcomed in the struggle against torture. Negotiations are underway at 
the United Nations to create an optional protocol to the torture 
convention that would allow the Convention's Committee against Torture 
to make visits to prisons in countries where it has special concerns. 
States ratifying the protocol would give the Committee authority to 
visit its prisons at any time. This would parallel an agreement for 
transparency in the European Convention against Torture, which has 
proven to be one of the most effective tools against torture in that 
region. This Committee should encourage the negotiators to move forward 
and the U.S. participants to assist in completing the text as soon as 
possible.
    The United Nations Special Rapporteur on Torture, Sir Nigel Rodley 
of the United Kingdom, has been doing an excellent job uncovering the 
practice of torture around the world. He must carry on this difficult 
assignment as a volunteer. To make matters still worse, he has almost 
no support staff available to him. This Committee could encourage the 
Department of State to make a voluntary annual to the advisory services 
trust fund for technical assistance and training of prison authorities 
and to assist in providing staff for the Special Rapporteur and the 
Committee Against Torture. They are both severely understaffed.
    Regional organizations, such as the Organization for Security and 
Cooperation in Europe, have made renewed commitments in the struggle 
against torture, including a call to establish at least one treatment 
program for torture survivors in each member state. The State 
Department should encourage these partners in the struggle against 
torture by supporting broad initiatives as well as experimental 
projects that advance our understanding of how we can end the scourge 
of torture in our region and in our lifetime.
    Mr. Chairman, your leadership in the field both of prevention of 
torture and care for the survivors has led to significant changes in 
the attitude of our government towards torture victims. But what has 
been done so far in concrete terms is just the tip of the iceberg in 
terms of need in the U.S. and worldwide. We need your continued 
leadership so that appropriate treatment is available to every torture 
victim. While we must not let up in our efforts to prevent torture, we 
also can not let down those who have been afflicted by this horrendous 
human rights abuse.

                                  <all>

</pre></body></html>
